<html>
<title> - EVALUATION OF THE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     

                          [H.A.S.C. No. 116-3]
_________________________________________________________________________                          
 
                           EVALUATION OF THE

           DEPARTMENT OF DEFENSE'S COUNTERTERRORISM APPROACH

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 6, 2019
                            
                            


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               ______

                U.S. GOVERNMENT PUBLISHING OFFICE 
35-336                   WASHINGTON : 2019




                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                Jonathan Lord, Professional Staff Member
                Peter Villano, Professional Staff Member
                          Rory Coleman, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Hecker, Maj Gen James B., USAF, Vice Director of Operations, J3, 
  Joint Staff....................................................     5
West, Hon. Owen, Assistant Secretary of Defense for Special 
  Operations/Low-Intensity Conflict, Office of the Secretary of 
  Defense........................................................     4

                                APPENDIX

Prepared Statements:

    Smith, Hon. Adam.............................................    41
    West, Hon. Owen, joint with Maj Gen James B. Hecker..........    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information is for official use only.]

Questions Submitted by Members Post Hearing:

    Mr. Brown....................................................    53
    Ms. Escober..................................................    55
    Mr. Gaetz....................................................    54
    Mr. Gallego..................................................    51
    Ms. Horn.....................................................    55
    Ms. Stefanik.................................................    53
    Mr. Waltz....................................................    54
    
    
  EVALUATION OF THE DEPARTMENT OF DEFENSE'S COUNTERTERRORISM APPROACH

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, February 6, 2019.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. I call the meeting--I call the hearing to 
order. Welcome, everybody. As a starting point, we are going 
to, after this, move into a classified setting. It is my goal, 
objective, hope, that we can start that at noon, which means we 
may not have enough time to do everybody for 5 minutes. But we 
will have another opportunity to ask more questions in the 
classified setting. If it drifts a little past noon, that is 
fine. But as we move from one to the next, don't want to keep 
these gentlemen for 3 or 4 hours. So just for everyone's 
information, we will do this, and then we will go into a 
classified setting and there will be an opportunity to ask 
further questions at that point.
    With that, I welcome everybody to the hearing. We have two 
witnesses this morning: the Honorable Owen West, who is the 
Assistant Secretary of Defense for Policy, Special Operations 
and Low-Intensity Conflict; and Major General James Hecker, who 
is on the Joint Staff, and Vice Director for Operations, J3. 
Welcome gentlemen. I look forward to your testimony.
    We are looking to get a greater idea of where we are at in 
combating international and transnational terrorist groups. And 
on this committee and at the Pentagon, I know we have a pretty 
good idea when we look out at the threat environment. And 
obviously, there are a lot of issues, but there are five that 
we are all focused on: Russia, China, Iran, North Korea, and 
the subject of today's discussion, which is transnational 
terrorists. And this has been, obviously, going on for some 
time, even before 9/11. But after 9/11, we reorganized 
significant portions of our national security apparatus to try 
to combat that threat. So that effort has been going on over 17 
years now. What we want to learn today is where is it at? What 
are our priorities? What is working? What is not working? And 
what do you see the future of this effort?
    To begin with, I think our response was fairly effective. 
And I remember General McChrystal talking about it, that 
basically when we had a full understanding of what al-Qaida 
was, he said, ``It takes a network to beat a network.''
    So we systemically did a whole-of-government approach 
building up our network to counter that terrorist threat. Now 
it has morphed and metastasized in the years since then. 
Originally, obviously, the focus was in Afghanistan and then 
shifted to Pakistan, and then we faced threats out of Yemen. 
And now you have a very extensive list of transnational 
terrorist groups. We are all familiar with al-Qaida and ISIS 
[Islamic State of Iraq and Syria] as the two at the top. But 
there are dozens of others in different places throughout the 
world, primarily in Africa and the Middle East and South Asia.
    So when we are combating those threats, how do we 
prioritize? Obviously, the number one biggest concern is when 
these organizations threaten the U.S. directly, or our Western 
allies. We want to try to stop those groups first. That is what 
took us to Yemen a long time ago when AQAP [al-Qaida in the 
Arabian Peninsula] started planning attacks against the U.S. 
and was behind the attempted bombing in Detroit, and also the 
attempted bombing using the package airlines. That shifted our 
focus there, so that is part of it.
    But also, if we are ultimately going to be able to defeat 
transnational terrorist groups, we need to stop them from being 
able to have safe havens where they can grow. Now, a lot of 
these groups aren't necessarily focused initially on targeting 
Western interests. They are sort of like criminal 
organizations. They are involved in drugs and human 
trafficking, and all manner of different crimes to fund their 
operations. But as we look at how we deal with the scarce 
resources that we have, I really want to learn more today about 
how we prioritize. What are the groups that we are most 
concerned about? What is our effort now to contain them?
    And then there is just two other points that I want to 
raise in my opening statement before turning it over to the 
ranking member. Number one, since the Trump administration, 
there has been a significant increase in kinetic strikes, 
bombings, but also raids against targets in a variety of 
places. Certainly in Afghanistan, there has been a significant 
increase in the tempo, but also in Somalia, and even in places 
like Libya and West Africa. Why? And what has it accomplished? 
And also what is the downside? I've seen various reports, 
primarily from nongovernment organizations, talking about an 
increase in civilian casualties. What impact does that have on 
our broader effort to defeat the ideology? Because again, to go 
back to General McChrystal and some of the things I heard him 
say, he said when you are combating a terrorist group, it is 
not a simple numbers game. It is not a matter of there is 100 
terrorists, and if you kill 50, you only have 50 left. If you 
kill 50, but you wind up upsetting 20 of their relatives, then 
you actually wind up with an increase. So how are we dealing 
with the backlash from those increased civilian casualties and 
unintended consequences? And what is being accomplished by that 
increase in tempo?
    And lastly, I know a report is due shortly, one of the most 
dominant aspects of this effort to combat transnational 
terrorist groups has been the significant increase in the use 
of our special operations forces. Their numbers, I believe, 
have more than doubled since 9/11. Certainly their OPTEMPO 
[operating tempo] is high. They have been doing very dangerous 
missions for a very long time. A question that this committee 
has asked, and I know Mr. Langevin's Subcommittee on Emerging 
Threats has asked as well: Are we asking too much of them? Has 
it strained the force to the point where it is causing 
problems? Are there things that we can do to mitigate that? How 
do we handle the fact that so much is now being asked of our 
special operations forces in light of the post-9/11 world?
    I look forward to your testimony, and I yield to the 
ranking member for his opening statement.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman, and let me join in 
thanking our witnesses for being here today. It seems to me it 
is absolutely appropriate for us to take a global look at 
terrorism today. It was true with bin Laden and Zawahiri that 
they moved around from different places before 9/11. It is more 
true than ever today.
    I note that Bruce Hoffman and Seth Jones, two witnesses who 
have testified a number of times before our committee over the 
years, have pointed out of the more than roughly 40,000 foreign 
fighters who arrived in Iraq and Syria, most of them are still 
on the loose. Today, there are nearly four times as many Sunni 
extremists around the world as on 9/11.
    So we have challenges, not only with a greater number than 
before, but it is harder to define them in a particular 
locality than it was before. And that is part of the reason 
that in the fiscal year 2014 NDAA [National Defense 
Authorization Act], we set up additional mechanisms for this 
committee to have oversight of special operations and other 
forces so that we could monitor, under our constitutional 
responsibility, what our military was doing in a variety of 
locations around the world, not just in Iraq and Afghanistan.
    I also think it is appropriate to sit back and see where we 
have been, to have things in perspective. As one of the few 
members left on this committee who was here on 9/11, I never 
would have expected us to go, let's see, 18 years nearly, and 
not have a repeat of that sort of incident. We have definitely 
had terrorist attacks here and abroad. But I also think it is 
important that we pay tribute to our military, intelligence 
community, and law enforcement for the remarkable success that 
they have had in the years since 9/11, because the enemy 
continues to be motivated to attack us without question.
    I am concerned that with these terrorists who are freer to 
roam about than ever before, that it is more important than 
ever before to keep the pressure on them. And it is my view, as 
others have written, that the number one lesson of the last 18 
years, if you let up the pressure they are going to spring back 
and they will spring back quickly. And that is true whether we 
are talking Syria, Afghanistan, Somalia, or Yemen.
    Mr. Chairman, I want to finish with just one other thing. 
On Saturday, my wife and I had the opportunity to attend a 
memorial service for the most recent member of our military who 
was a casualty in this war against terrorists. Army Ranger 
Sergeant Cameron Meddock was killed a couple of weeks ago in 
Afghanistan on a very important mission. And I bring that up 
for two reasons. Number one, we can never forget the human 
sacrifice, the human cost that goes into keeping us safe and 
free, and some members of this committee have participated in 
that effort. Sergeant Meddock was one who gave everything he 
had.
    And secondly, it is important because we can't really talk 
about the mission he was on and so forth, but it was very 
important, not for Afghanistan, but for us. Because that 
mission was designed to make sure that known terrorists were 
not able to enter the battlefield against our troops and 
against our homeland. And so, I think a lot of the questions 
you outline, Mr. Chairman, are exactly the appropriate 
questions we should always ask. I also think it is very 
important that we never do anything to diminish the importance 
of the mission that Sergeant Meddock and others have given 
their life for over the last 18 years, because what they have 
achieved is remarkable, and what they are doing today is 
remarkable as well.
    Thank you. I yield back.
    The Chairman. Thank you, Mr. Chairman.
    Mr. West.

STATEMENT OF HON. OWEN WEST, ASSISTANT SECRETARY OF DEFENSE FOR 
   SPECIAL OPERATIONS/LOW-INTENSITY CONFLICT, OFFICE OF THE 
                      SECRETARY OF DEFENSE

    Secretary West. Thank you, Mr. Chairman, Ranking Member 
Thornberry, and members of the committee so dedicated to this 
issue over the years, for the privilege of testifying before 
you today. The counterterrorism fight continues to evolve. I 
want to take this opportunity to highlight where we have been 
and where I think we are headed.
    I will start with our counter-ISIS campaign. Our coalition 
has almost destroyed the so-called the physical caliphate. By 
this, I mean ISIS no longer governs a pseudo-state in Syria 
that at its height attracted tens of thousands of recruits from 
around the world who easily slipped across the border, took up 
arms, and lived off of ISIS illicit revenue streams that at one 
time topped $250 million per month. The human toll was, of 
course, much higher.
    The so-called physical caliphate has been systemically 
destroyed in one of the most lethal, offensive surrogate 
operations in history. In Syria, U.S. special forces partnered 
with and mentored the Syrian Democratic Forces [SDF], which 
grew from a few hundred to tens of thousands of Kurds and 
Arabs, all supported by the U.S. Marines, Army, Air Force, and 
international partners. The SDF, fighting for its homeland, 
suffered thousands of casualties. ISIS has suffered the most. 
This achievement should not be discounted and its model should 
remain an enduring lesson in this long war. I say ``long war'' 
because the end of the so-called physical caliphate ushers in a 
new phase of fighting. ISIS has morphed into a global 
ideological network as deadly and evil as al-Qaida at its 
height.
    Stepping back, terrorism remains a persistent condition 
driven by political, religious, and socioeconomic trends. So we 
must simultaneously acknowledge that while we are close to a 
tremendous battlefield victory, we still face a resilient 
threat. In the last 2 weeks, individual ISIS terrorists bombed 
a church in the Philippines, while its West African affiliate 
overran military bases in Nigeria.
    To defeat the global terror networks requires a coalition 
of allies applying relentless pressure at the local level. This 
means we must make cost-informed decisions on the future CT, or 
counterterror, operations. A disciplined approach to this long 
fight will also enable our Department's pivot toward great 
power competition with near-peer adversaries in line with the 
National Defense Strategy, and the renewed importance of 
irregular warfare in this space.
    To be clear, this does not mean raising the risk for every 
resource optimized. Rather, it means we must be deliberate in 
operations against prioritized threats for the long haul, 
remaining agile as the enemy.
    Operation Inherent Resolve provides an excellent template 
for such future operations, because it stressed local and 
international partnerships with a modest U.S. footprint. The 
Department of Defense will continue to execute counterterror 
operations globally to prevent attack on America and our 
interests. Congress has been a stalwart partner in helping to 
ensure we have the necessary resources and authorities to 
achieve this overriding goal. I value our relationship. I look 
forward to continuing dialogue. And I look forward to your 
questions today.
    Thank you.
    The Chairman. General Hecker.

 STATEMENT OF MAJ GEN JAMES B. HECKER, USAF, VICE DIRECTOR OF 
                  OPERATIONS, J3, JOINT STAFF

    General Hecker. Chairman Smith, Ranking Member Thornberry, 
first of all, thank you for honoring Sergeant Meddock with your 
presence at his funeral, as well as here at the House. I am 
sure his family members certainly appreciate that, so thank 
you.
    Members of the House Armed Services Committee, thanks for 
the opportunity to speak to you today concerning DOD's global 
counterterrorism campaign.
    In our current operational environment, we assess that ISIS 
and al-Qaida are degraded, but still viable global network 
organizations that is well-positioned to generate capability if 
the pressure is reduced. Over the past year, there have been 
two strategic inflections related to the defeat of ISIS fight, 
and to a broader campaign against violent extremist 
organizations [VEOs]. First, ISIS lost its physical caliphate 
in Iraq and Syria, and evolved into a trans-regional networked 
insurgency, making it vulnerable to kinetic attack.
    Second, our Nation shifted priority focus from countering 
VEOs to great power competition as reflected in the National 
Defense Strategy and evolving strategic guidance on Syria and 
Afghanistan. Going forward, these inflection points will 
fundamentally change the way that we conduct our CT operations. 
We must continue to evolve our way of doing business in the 
counterterrorism space, placing more focus on enabling our 
coalition partners and interagencies, increasing nonmilitary 
and non-kinetic effects, and enhancing local partner capacity 
and capability to contain this threat.
    This evolving counterterrorism operation construct will 
place even greater emphasis on successful programs, such as the 
127 Echo [127e] program, which provides us viable surrogate 
forces designed to achieve U.S. CT objectives at relatively low 
costs in terms of resources and especially risks to our 
personnel.
    The small footprint approach inherent in 127 Echo, in 
addition to lessening the need for large-scale U.S. troop 
deployments, fosters an environment where local forces take 
ownership of the problem. Greater reliance on our coalition 
partners will also be a key facet of our sustainable and global 
CT construct. We are already seeing this in places like Mali 
and Niger, where French forces have taken the lead in 
conducting counterterrorism operations against JNIM [Jama'a 
Nusrat ul-Islam wa al-Muslimin] and ISIS Greater Sahara, with 
us providing key enabling support in such areas of intelligence 
and logistics. This willingness by our partners to shoulder 
more of the load, offers our formations the opportunity to 
rebuild a more sustainable level of readiness after 17 years of 
continuous operations.
    Hard-won experience over the last decade and a half has 
taught us that sharing information with our partners is 
absolutely critical in staying ahead of the global network 
VEOs. We must build on our current information and 
intelligence-sharing constructs, and also encourage our 
partners to undertake similar yet more regionally focused 
ventures on their own.
    Once again, thank you for the opportunity to speak today 
and we look forward to your questions.
    [The joint prepared statement of Secretary West and General 
Hecker can be found in the Appendix on page 43.]
    The Chairman. Thank you, gentlemen.
    The starting point, when we look at where the transnational 
threat is at right now, and we know there are disrupted 
terrorist groups in a number of different of countries 
throughout Africa, Middle East, South Asia. What are the areas 
that you are most concerned about in terms of groups that are 
able right now to plot and plan attacks that could be carried 
out against Western targets either in Europe or in the United 
States? And how do you assess that threat level at this point?
    General Hecker. I think first and foremost, when we 
prioritize what we are looking at and who we are most concerned 
about, I think we would all agree what we are most concerned 
about is a repeat of 9/11. So we look at terrorist 
organizations that want to harm of U.S. For the most part, you 
know, in their stated reasoning, and what they are all about, 
al-Qaida still has the intent to harm the United States and 
other countries in the West and Europe. So al-Qaida is one that 
we really look for.
    The Chairman. I am thinking more geographically, where in 
the world? Because obviously, al-Qaida is spread out in a bunch 
of different places as well as is ISIS. Where in the world are 
we most vulnerable to them being able to organize that type of 
attack?
    General Hecker. Well, there is a couple of different 
places. I think, right now, we sit in a decent spot because we 
have maintained the pressure on a lot of the folks, al-Qaida, 
ISIS in particular. And we have been able to make sure that 
they don't have the capabilities to attack the U.S. So those 
are the areas that we look at. And as we now adjust with our 
National Defense Strategy to taking some resources that used to 
be in those areas and now using those resources for global 
competition against China and Russia, we need to make sure that 
we find a way to keep the pressure on these other areas in the 
world that contains these terrorists.
    The Chairman. Okay. Doesn't quite answer the question. We 
can talk about it in a classified setting, if that is more 
comfortable.
    The only other question I have is you talk about 
partnerships, and I think that is incredibly important, because 
part of being able to defeat these terrorist groups is to have 
as low a U.S. presence as possible and to make it more about 
developing domestically. So whether you are talking about 
Somalia, West Africa, Afghanistan, you know, if the countries 
themselves and the countries in their region can be partners to 
stop terrorism and build a more sustainable government, 
obviously, I know the limitations of that, but that is where we 
want to go. In Syria and Afghanistan, as we discuss drawing 
down in both of those places, and I am not unsympathetic to the 
idea. I just want the idea that there is a plan behind it.
    Who are our partners in Syria, if we pull out completely, 
as the President has suggested? We have been working with the 
Syrian Democratic Forces, we have been working with the Kurds. 
If we pull out, how are we going to be able to work with people 
in that region to continue to contain the ISIS threat? And same 
question for Afghanistan.
    Secretary West. Thank you, Mr. Chairman.
    In Syria specifically, the SDF remains our best partner. 
What they have done in this fight is astonishing. We will 
continue to support them. We should remember that the D-ISIS 
[Defeat ISIS] coalition makes up 79 different countries.
    The Chairman. If I could be more pointed to the question 
and quickly, so I can move on to other people. Are these forces 
we are talking about going to have sufficient support to 
continue doing what you just described, or I think we all 
acknowledge, if we pull our forces out? What is the strategic 
rationale for looking at Syria right now and saying, we can 
pull our troops out and yes, the other part, they will be fine. 
What was the strategic thinking that went into that decision 
that said that we can do that?
    Secretary West. Sir, I do not know the strategic thinking 
that went into it. I know that we have been issued an order to 
deliberately withdraw. But I do believe that if we look at the 
outset of ISIS, we were doing remote advise [and] assist. We do 
not need to be co-located to keep the pressure on the enemy.
    The Chairman. Okay. Mr. Thornberry.
    Mr. Thornberry. Gentlemen, in response to the chairman, you 
said that we are in a pretty decent place because of the 
pressure that we have applied. Be specific. What kind of 
pressure are you talking about?
    General Hecker. It is really what this whole committee is 
all about, or this hearing is all about, the counterterrorism 
pressure that we have been able to apply. If you look at the 
area in Afghanistan and Syria back in 2014, there was a large 
area that was controlled by ISIS. We were able to apply 
pressure primarily through partner nations, as well as 
partners. So we weren't doing a lot of the fighting ourselves, 
we are teaching and training, and working by, with, and through 
our partners in Iraq and our partners in Syria.
    Mr. Thornberry. But the chairman noticed that there has 
been an increase of air strikes in recent years. Is that part 
of the pressure too?
    General Hecker. Yes. There has been a significant increase 
in air strikes in both Syria, Iraq, and in Afghanistan. So we 
have increased the efforts to decrease the physical caliphate. 
And I think we have been relatively successful. As you have 
seen, there is roughly only about 1 percent of the physical 
caliphate left and that is in Syria in the Middle Euphrates 
Valley. We are rapidly working to try to finish that off and we 
think we will be there quite soon.
    Mr. Thornberry. You agree with my earlier statement that 
one of the lessons, primary lessons, of the last 18 years is if 
we let up that pressure, then terrorist groups have a way of 
springing back to life in a rather rapid fashion?
    General Hecker. Yes, sir. I agree with that.
    Mr. Thornberry. Let me ask one other question right quick. 
As you know, Yemen has been a controversial location, because 
it is a complicated, difficult situation. You said that one of 
our primary objectives is to prevent another 9/11. At one 
point, the primary terrorist or threat to our homeland emanated 
from Yemen and the al-Qaida branch there, print cartridge plot, 
as well as a bomb maker who was burying bombs inside human 
bodies and a whole variety of things. Are there still al-Qaida 
remnants in Yemen today, or have they been extinguished?
    General Hecker. No, they are still there today. And there 
is a significant number that are there as well. And we can get 
into the specific numbers in the closed session. But there is 
also ISIS there as well, not quite as many as al-Qaida. But 
that is one of our CT efforts that we have is going against 
both of those entities that are in southern Yemen.
    Mr. Thornberry. Thank you. I yield back.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and to both of you, we 
appreciate you being here. I want to follow up a little bit on 
what has just been said.
    We would love to be able to rely on our partners, and also 
the men and women of the country that were in Afghanistan, 
obviously, is a good example of that. We have been hoping that 
they would be in a better place today than they are. But where 
then--if these partners are not there, where do we go? How do 
we work within our own intelligence agencies, within the State 
Department? What is it that has to be different if we are to 
remove our troops, at least in numbers that are very different 
from today?
    Secretary West. Thank you, Congresswoman.
    First of all, I would say that local partnerships are 
absolutely key to our long-term counterterror strategy. Over 
the last 15 years, though, we have developed capabilities in 
terms of fusing intelligence with operations. And that 
intelligence can come from a variety of sources. Although it is 
excellent to get human intelligence at the local level, I can 
explain in a closed session just how we operate in countries 
like Yemen and are able to differentiate between AQAP and ISIS, 
and the current civil war.
    Mrs. Davis. And the State Department?
    Secretary West. The State Department--and by the way, many 
other agencies are key components. And I think this is another 
enduring lesson of this war, in terms of having a whole-of-
government approach. There is--in most of these countries, if 
not all, there is a diplomatic effort that is simultaneous with 
our military counterterror effort.
    Mrs. Davis. General Hecker, you mentioned sharing of 
information sort of as in talking about this. And one of the 
things that I think we all were setback a little bit with our 
forces in Niger in 2017, a sense that we didn't know where our 
forces were. How do we balance the secrecy important to the 
mission, and at the same time, providing information to the 
public and to our partners in the area?
    General Hecker. Yes, Congresswoman. A very important 
question, because, you know, we don't want to give information 
up that may put our folks at risk. But at the same time, we 
need to make sure that our civilian leadership knows what is 
going on and has a say in what we are doing. And quite 
honestly, I think Niger was a good lesson for us in the 
military. And I know we have had several discussions, with your 
committee and others, to make sure that we continue to share 
information with one another, so you can exercise the 
appropriate oversight that you deserve.
    Secretary West. Congresswoman, if I can follow up. This 
committee was the driving force behind our counterterror 
monthly briefings, which will give you an absolutely accurate 
laydown each month of precisely where our special operations 
forces and other counterterror troops are.
    Mrs. Davis. Thank you. And I think the public is still 
questioning whether or not having unlimited authorization is 
the best way to go to try and make certain that we are as open 
and transparent as possible, given the circumstances that our 
troops are in. Can you speak to that? Where do we go from here?
    Secretary West. Congresswoman, we are absolutely committed 
to transparency with our oversight committees. Right now, we 
are working with your staffers, and we are very close to 
distributing our ex [execute] orders. This is new policy for 
us, but I think that will help the transparency. Further, over 
the last year, we have also improved our reporting requirements 
to make sure that you are armed after a strike, for example, 
with information within the 48-hour requirement that this body 
helped impart a few years ago, and then a follow-up that makes 
clear the action within 7 days.
    Mrs. Davis. General, any comments--did you want to make?
    General Hecker. We are in sync on that one, ma'am.
    Mrs. Davis. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. Thank both of you for 
being here today.
    I recently received a brief at Joint Base Anacostia-Bolling 
on the materiel, weapons, and technology which the Iranian 
regime supplies to the Houthis in Yemen. It was really shocking 
to see how clear it was, the relationship of providing weapons 
to the Houthis by the Iranians. It made it pretty simple, 
because some of the materiel there, the weapons were very 
clear, in English, made in Iran. And with this, the Iranian 
regime is the world's largest state sponsor for terrorism, and 
use Houthis as a proxy.
    And for Secretary West, how does our counterterrorism 
strategy and CENTCOM [U.S. Central Command] area of 
responsibility address the Iranian influence and sponsorship of 
terror?
    Secretary West. Sir, our national strategy in both Yemen 
and Syria is stable areas, free of Iranian and terror 
influence.
    Mr. Wilson. And additionally, I appreciate that you have 
had multiple deployments to Iraq. And you had firsthand 
experience working with Iraqis. Can you speak on the importance 
of maintaining a counterterrorism strategy in the region if the 
United States and partner forces withdraw forces as has been 
proposed in Syria? How would the terrorist organizations 
proliferate or increase in the region?
    Secretary West. Congressman, the President has stated that 
we will have a long-term military presence in Iraq. This 
partnership still evolves, but the Iraqis are our partners. I 
believe it is critical to have a regional counterterror 
footprint that spans the globe. And I think this is, again, one 
of lessons that we learned over the 15-odd years of this war.
    Mr. Wilson. And I appreciate very much your response to 
that.
    Additionally, while ISIS has lost significant territory 
recently, social media still serves to accelerate the group's 
ideology and network of influence. Again, Mr. Secretary, what 
are the counterterrorism efforts to combat the proliferation of 
ISIS ideology through social media?
    Secretary West. Congressman, that is an excellent question, 
because the ideology is very much alive and their will to fight 
is very much alive through different media. I would like to get 
to the specifics of that in the closed session. I think I can 
answer that question with much more fidelity. Suffice it to say 
that that has our utmost attention, but this is not just a DOD 
problem. I think stepping back when we look at information 
warfare and messaging against the ideology, we have got work to 
do.
    Mr. Wilson. Thank you very much.
    And General Hecker, I am concerned about the reductions of 
military personnel in Afghanistan, and the potential of 
terrorists to regain safe havens as they did prior to 9/11. 
Recently, in December of 2018, the administration announced a 
reduction of forces. How does this policy impact our 
counterterrorism activities?
    General Hecker. Well, as you know, there is a lot of 
ongoing diplomatic conversations that is going on between 
Khalilzad, Ambassador Khalilzad and the Taliban as we go 
forward here.
    As the President mentioned last night in the State of the 
Union address, it is going to depend on the success of those 
negotiations on when and if, and how many U.S. forces are 
pulled out of Afghanistan. So as we move forward, we will watch 
closely with what our diplomatic efforts are, and then, we will 
adjust accordingly based on how those efforts end up.
    Mr. Wilson. And General also, recently, the Pentagon 
announced a reduction in counterterrorism troops in Africa over 
the next 3 years as part of a force optimization. What is being 
done to maintain counterterrorism capability in the region? How 
can we mitigate adverse impacts and prioritize the constrained 
resources?
    General Hecker. So because of the National Defense 
Strategy, which is going to concentrate on peer power 
competition, we have to get the assets from somewhere. So what 
we started with is we started with Africa. And we went with 
this Africa optimization model. Where can we pull troops where 
we don't think the U.S. interest of an attack may come from, 
and where we can do that? So we have done that with Africa. Now 
we are going to do that throughout the rest of the world and 
realize as we pull troops, we are going to use partner forces, 
as well as the 127 Echo programs that we talked about to try to 
maintain pressure on the enemy. My hunch is we will miss some 
of these. We will pull some and we will go, hey, we are not 
getting the pressure that we desire to make sure that our 
country stays safe. So this is something, this optimization, 
that we will continue to revisit monthly, basically, to make 
sure that we have the pressure needed to keep the U.S. and 
Western interests safe.
    Mr. Wilson. I thank both of you for your testimony today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. So thanks for coming, 
gentlemen. Mr. Secretary and General, thanks for your comments 
on 127e. That is, as I understand it, I guess the grandchild of 
the 1206 and the 1208 programs that we created in the mid 
2000s. I think I got that right. And then we codified those 
into 127e. So these programs have been around for at least--the 
authorities have been around for at least 10 years. And with 
this focus on great power competition, have you at all 
considered how using the 127e authorities, or other authorities 
for partnership capacity, are going to be any less or more 
successful than they were in the mid 2000s, given the fact that 
we are going to be focused more on the great power competition 
and less on CT? What is going to be different?
    Secretary West. Congressman, you are right, the 127e 
started as a modest fiscal authority of $10 million. It has 
grown to $100 million per annum, thereabouts. There is a new 
authority called 1202, which is purpose-built to get after the 
problem you are talking about, it's irregular warfare. You are 
going to start to see some of the CONOPS [concept of 
operations] and proposals coming up to you soon, if you haven't 
already. And I think this new authority going forward should be 
grown in a similar way where we have to demonstrate its value 
proposition to you, our board. But ultimately, I think this 
should be as large as 127e.
    Mr. Larsen. Well, it is going to have to be a little 
different because if we were asking these questions in the mid 
2000s, and we are asking them 10 to 12 years later and not 
getting--and getting the same answers, it seems to me that 
maybe we ought to be doing something different. Or it might not 
be totally our fault. It might be the challenges that our 
partners present as well. And because it may just be harder to 
get them to change--some of the countries that we work with 
maybe don't have our history, our culture, our commitment to 
civil rights, human rights. And that causes a big problem for 
us when we are trying to create these partners.
    But on 127e, I want to go back to your answer from--to Mrs. 
Davis, because despite repeated requests by this committee and 
by the Senate Armed Services Committee, these execute orders 
relating to operations haven't been provided on a consistent 
basis. And to my understanding, we have been asking for at 
least a year. So you said it was kind of new for us to ask. I 
don't think a year makes it new. It gives us the impression 
that you are holding back, and that you only provide these ex 
orders when it is necessary to provide them because we are 
putting holds on programs. So I guess I would really want to 
push on you and get a commitment from you that you are going to 
be sharing with this committee the ex orders that are governing 
the Department's counterterrorism operations, and doing it 
before we threaten you withholding money from other programs, 
and rather just doing it in the interest of transparency. Can 
we get that commitment today?
    Secretary West. Sir, we are committed to agreeing to an MOU 
[memorandum of understanding] to get the ex orders delivered to 
you on a read-and-return basis.
    Mr. Larsen. It sounds like a lot of process. I would just 
like a ``yes'' answer.
    Secretary West. Sir, it has been a long process. And I 
understand your frustration. We are committed to working this 
as quickly as possible.
    Mr. Larsen. The title 10, section 130(f) also requires----
    The Chairman. I am sorry. I will give you more time. But 
what does ``as quickly as possible'' mean? Can you ballpark it 
for us? It has been a year, so weeks?
    That looks like a no.
    Secretary West. We have had to run this, because it is a 
new DOD policy, through review after review, but we are very 
close in this negotiation.
    The Chairman. That doesn't mean anything. Nothing you have 
said in response to Mr. Larsen's question means anything. Okay? 
So I would almost rather have you say, I have no idea, we are 
working on it, who the hell knows? I mean, days, weeks, months?
    Secretary West. Sir, if you will permit me, I will get you 
that, an answer with granularity in the coming days.
    The Chairman. We will anxiously await that. I apologize, 
Mr. Larsen, go ahead.
    Mr. Larsen. Yeah, thank you.
    Mr. Secretary, would you say you are doing more aggressive 
review of this decision than the Syria withdrawal decision?
    Secretary West. I am sorry, sir. Could you repeat the 
question.
    Mr. Larsen. I think I made my point with it. I think you 
are probably giving this more review than the review about 
withdrawing from Syria from the Department's perspective. On 
title 10 section 130(f), it requires notification within 48 
hours. You mentioned that in response to Mrs. Davis' question. 
And although notification, timing, and information is slowly 
improving, it seems the administration hasn't complied 
consistently with that requirement. So again, will you commit 
to continuing to improve this process and these procedures for 
the notification of these sensitive military operations to 
Congress, as required by law?
    Secretary West. Yes, sir.
    Mr. Larsen. That wasn't so hard. Thank you. I yield back.
    The Chairman. Thank you. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you for having 
this hearing. Thank you both for what you do for our country.
    I would like to ask a little bit about the forces in Iraq 
that possibly have connections to Iran. We have seen evidence 
that in the past Iranian-linked militias were able to access 
resources, including even advanced defense weapon systems 
through our train-and-equip mission that we provide the Iraqis. 
And Iran is now lobbying hard for the Iraqi leader of the 
Popular Mobilization Forces to become the next Minister of the 
Interior. And then the Minister of the Interior oversees those 
forces and all of Iraq's internal security, and we give them 
$1.6 billion a year for their 20,000-person security forces. So 
what are we doing to make sure that we are not ultimately 
bankrolling Iranian-backed militias or politicians in Iraq? Mr. 
West.
    Secretary West. Sir, thank you. I am here in a 
counterterror capacity, but I will say that we are absolutely 
committed to the Iraqis as our partners, but this ultimately--
part of your question is ultimately up to the Iraqis. We 
partner with them to protect and defend their sovereignty, but 
I think this partnership, over the years, has continued to grow 
and we will have a long-term presence in Iraq, which gets to 
the heart of your questions.
    Mr. Lamborn. General Hecker, do you have anything to add to 
that?
    General Hecker. I think the big thing for us, when we look 
at this from a military perspective, is to make sure our 
military members are able to be--the force protection is there 
for them. We saw this with--we had to close the consul in 
Mosul, because we had some what we thought were Shia kind of 
militia groups that were throwing some IDFs [indirect fires] 
that way. We have looked at the construction around the bases 
that we are at to make sure that our troops will be safe from 
any of these groups. But this is an Iraqi issue that we, with 
State, need to work with them to make sure that they look at 
this issue and take it seriously, because we need to make sure 
that Iran doesn't have the influence. And we have a lot of 
forces in the area to try to deter Iranian malign influence in 
the area.
    Mr. Lamborn. Ok, thank you both.
    Changing gears, we know that title 10 military forces have 
been deployed to bolster Homeland Security on the southern 
border. In fact, we had a hearing about that here in this 
committee recently.
    So Mr. West, one of the six strategic objectives of the 
national counterterrorism strategy is, quote, ``Americans are 
prepared and protected from terrorist attacks in the homeland, 
including through more exacting border security and law 
enforcement actions,'' unquote.
    So what kind of resources are we going to be able to give 
to Homeland Security from title 10 forces or other assets that 
will help accomplish that particular strategic objective, 
especially as it pertains to southern border? I know there is 
all kinds of Homeland Security ways of accessing--terrorists 
can access our country. But I want to concentrate on the 
southern border right now in particular.
    Secretary West. Congressman, I will let General Hecker talk 
about the details of the border deployment, which he has. But I 
will say that in my judgment over the last 15 years, the 
interagency partnership, and at the heart of your question, it 
is, how do we work together to fuse intelligence with 
operations to prevent penetration of the homeland, is really, 
really good.
    Mr. Lamborn. Thank you.
    General Hecker. And so far as upcoming deployments, we have 
roughly 3,750 title 10 forces that will be coming to the 
southern border over the next 30 days. We have 2,500 that will 
go along the southern border and they will all be laying in the 
167.5 miles of concertina wire. In addition to that, we have 
roughly 1,100 forces that will be deploying to man the--to do 
basically a surveillance kind of mission we call it the MSC 
mission, mobile surveillance cameras, and they'll be looking at 
that.
    In addition, and this is new as of basically yesterday, 
there is 20--or 49 buses that are coming up to the southern 
border, just to the south of Del Rio in Texas. Based on that 
threat, CBP [U.S. Customs and Border Protection] requested us 
to help them at one specific point of--port of entry where 
these roughly 2,000 people are on their way to. So over the--2 
days ago, I think is--no, it was actually yesterday morning is 
when we made the decision to call what we call a ``crisis 
reaction force.'' So this is a force that can come and help out 
at that one specific----
    The Chairman. I am sorry. The gentleman's time has expired. 
I should have explained that at the front to the witnesses, 
when we get down to 5 minutes, we do try to move on.
    We will just note for the record that as we talked and the 
chairman noted we had the attack on 9/11. We have not had an 
attack like that since. We have had other attacks, groups 
affiliated with ISIS and other terrorist groups hit us in the 
U.S. and exactly none of those people have come across our 
southern border. So while we are talking about counterterrorism 
here and throughout today's hearing, it is very difficult to 
see any link between the southern border and the terrorism 
attacks that we are talking about here, that is not where they 
are coming in from. I just want to make sure the record 
reflects that. And I yield to Mr. Garamendi.
    Mr. Garamendi. It would be very useful to have a full 
report immediately on the deployment of these troops to the 
border, and a clear understanding of not only what they intend 
to do there, but what they were doing before they were deployed 
to the border. In other words, what ongoing task has been 
degraded as a result of the deployment of the troops to the 
border. Could you please develop that and get that to us 
immediately?
    And I would remind you that at the last hearing last week, 
I asked for some specific information along that line. It has 
just not yet been delivered. So thank you.
    General Hecker. Congressman----
    Mr. Garamendi. Going back to the issue of Syria, and the 
pullout of Syria, and the reality that there really was no 
strategic strategy behind the pullout tweet, we do know that 
the major cities along the river valley have been destroyed, 
literally leveled, beginning with Raqqa, Iraq, and then moving 
on into Syria. I think your testimony, if I recall it 
correctly, indicated that there is a significant potential for 
a resurgence of ISIS in that area. Is that a result of the 
destruction of the communities, the economy and the societies, 
or is there some other reason that you anticipate a resurgence 
of ISIS in those areas?
    General Hecker. Congressman, are you addressing that 
question to me?
    Mr. Garamendi. I am sorry?
    General Hecker. Is that question for me, sir?
    Mr. Garamendi. Well, for both of you. You seem to want to 
take a shot at it, go for it.
    General Hecker. Sure, I will give it a shot, sir. I don't 
remember saying that there is going to be a significant 
resurgence of ISIS in the area. But I think there is a serious 
risk if we do not keep the pressure on in both Syria and Iraq. 
And I realize the concern is if we move our forces out of 
Syria, that that may take some pressure off of the ISIS forces 
in Syria. So our mission is to try to figure out how we can 
continue to keep the pressure on in Syria without any boots on 
the ground.
    Mr. Garamendi. And how are you doing in that effort trying 
to figure out?
    General Hecker. So what we are doing is detailed military 
planning, and our objectives are to safely remove our troops. 
We have an objective to make sure that we finish up the last 
little bit of the fight that is left there in the Middle 
Euphrates Valley. And then we need to also make sure that the 
security concerns of both the Turks and the security concerns 
of the people that we just fought with, the SDF, are taken care 
of.
    Now I realize that is a very difficult task and it can't be 
done just militarily. It also needs to have high diplomatic 
levels of effort which Ambassador Jeffrey is working with the 
SDF, with Turkey, and with coalition to see if we can have 
coalition forces, SDF, in coming up with a plan to see what we 
can do to try to keep the pressure on.
    Mr. Garamendi. Jeffrey has replaced McCabe in this task of 
working with the----
    General Hecker. Ambassador Jeffrey is the one that is 
currently working with both Turkey and the SDF on agreements.
    Mr. Garamendi. How about the reconstruction of the cities, 
and the economy, and the societies that have been pretty much 
smashed? Mr. West.
    Secretary West. Sir, the heart of your question is 
stability operations, and is there going to be a vacuum now 
that the U.S. has withdrawn. And we are doing our very best in 
terms of what we can do as a military to prevent that vacuum 
from being filled by malign actors.
    Mr. Garamendi. Is there any reconstruction plan for the 
communities and cities, or are you going to leave the fertile 
ground of the destruction for ISIS to then flourish?
    Secretary West. Sir, our orders are deliberate withdrawal. 
But there is a coalition in place. So we certainly are not the 
only actor there, and we certainly can support from afar.
    Mr. Garamendi. My question isn't on the military side, it 
is on the humanitarian side. Is there any plan?
    The Chairman. I am sorry, we will have to take that one for 
later. The gentleman's time has expired.
    Mr. Garamendi. Thank you.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Major General Hecker 
and Mr. West, thanks so much for joining us today.
    I wanted to begin with Major General Hecker. This past 
November, I traveled with my colleagues to Afghanistan to 
really get a laydown of what is happening there. I had a chance 
to meet with General Miller, President Ghani, to talk about 
them--to them about what is happening with negotiations with 
insurgent groups, specifically, the Taliban, and what is 
happening in the reconciliation effort. And what we found out 
was that from their perspective, it is going to take more than 
political force and posturing to bring substantive change to 
the dynamic that is happening between those insurgent groups 
and U.S. forces and the Afghan Government.
    I want to go to what Chairman Dunford said in early 
December, I want to say his words. He said ``Reconciliation 
between the Afghan Government and Taliban can only be achieved 
by bringing sufficient political, social, and military pressure 
on the insurgents to accept a negotiated settlement. And this 
strategy would not work if the U.S. did not retain its 
capability to bring military pressure on the insurgents to 
accept the deal.''
    And Major General Hecker, I know your experience there with 
the 9th Air and Space Expeditionary Task Force in Afghanistan 
as past commander and past commander of the NATO [North 
Atlantic Treaty Organization] Air Command in Afghanistan. I 
wanted to get your perspective about how you feel the drawdown 
puts us in a position as far as being able to bring the 
necessary military force to make sure that there is a 
substantive and lasting opportunity for reconciliation between 
the Taliban, and not just the United States forces, but most 
specifically, the Afghan Government?
    General Hecker. Yes, Congressman. Thanks for that question. 
And I just don't want to presuppose that there is going to be a 
drawdown. It is in relation to how the negotiations go. But 
those different types of pressure that you talked about, it is 
really the whole-of-government efforts that are going to be 
required to make this happen. We see the ongoing efforts, you 
know, socially, you know, with some of religious leaders and 
how they have spoken up against some of the things that the 
Taliban leaders are doing. So they are getting some social 
pressure there. We are working the political pressure, albeit 
it is early in its state with Ambassador Khalilzad and the 
negotiations that he is working.
    On the military side of the house, our desire is to keep 
the pressure on the Taliban. We know that some of the Taliban 
are in part of these negotiations, so we have kind of made a 
distinction between Talibans. There is unreconcilable Taliban, 
which we don't think will ever reconcile. And then there is 
others that they are thinking about it. When I was in 
Afghanistan, when I first showed up about a year and a half 
ago, reconciliation wasn't in anyone's vocabulary. Since then, 
we have had a ceasefire. So we have made progress, but we still 
have a long ways to go. So what we need to do is keep pressure 
on the nonreconcilable Taliban to help the negotiations that 
the State Department and we are doing diplomatically to keep 
the pressure on.
    Mr. Wittman. Very good. Thank you, Major General Hecker.
    Mr. West, I wanted to get your reflection on an article 
that you wrote back in 2012 for a news outlet, better known as 
Slate. And you wrote a series of pieces titled, ``Can the 
United States Build a Foreign Army?'' And you wrote ``One 
belief was constant, adviser teams work. I only wish some of 
our predecessors had seen the eventual turnaround.'' So my 
question for you is this: Do you believe that the Afghan 
National Army [ANA] will have sufficient military advisers and 
support to effectively combat the threat going into the future, 
whether it is Taliban or al-Qaida? And are they ready for what 
they will have to deal with, more of a U.S. hands-off approach, 
and less U.S. presence, and maybe less U.S. support in the 
train and advise and assist mission?
    Secretary West. Sir, I am not well-versed enough in the ANA 
to answer that specifically. I do believe that combat advisers 
provide us--or combat multipliers, they provide us real 
leverage, and the train, advise, assist mission is crucial.
    Mr. Wittman. Let me ask another element too. The Army's 
Security Force Assistance Brigades continue to bring a new Army 
presence there, more permanent and more continuing ability to 
help the Afghan National Army build capability and be effective 
in the future. Do you believe that structure has long-lasting 
opportunity there? And do you think that that should be a 
continual presence there in helping the Afghan National Army 
not only attain but to maintain capability to defeat insurgent 
forces in that country?
    Secretary West. Yes, sir.
    Mr. Wittman. Okay. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Norcross.
    Mr. Norcross. Thank you, Chairman. Thank the two of you for 
coming before us today.
    I want to focus a little bit more on the evaluation of the 
Department's counterterrorism approach, the very focus of the 
committee hearing today. And General, you mentioned something 
that when you are assessing the threats across the Middle East, 
but particularly focused in that area, that you need to take 
troops from somewhere where the threat is not as great. Let's 
take those words and we think about the threat assessment that 
is going across Syria, Iraq, Iran, through that Middle East 
area. You are suggesting that the threat on our southern border 
is greater than the threat coming from the Middle East, and 
that is why the troops would be going south?
    General Hecker. No, Congressman. I am sorry. I was just 
addressing the southern border with the question. I didn't mean 
to impose that there are terrorists coming across the southern 
border at all.
    Mr. Norcross. Let me drill down. You said you make the 
threat assessments and you take the troops from where the 
threat is less and put them where there is more. And we just 
talked about an additional 2,500 troops going to the southern 
border, which would suggest by your own words that that is the 
greatest threat taking place, because that is where you are 
sending troops. Is that the case?
    General Hecker. Uh-huh. So we--we were given, you know--we 
were requested for assistance from Department of Homeland 
Security on if we could put troops and help them out on some 
gaps that they had on the southern border. We looked throughout 
the forces, and we determined that we had some forces that we 
could take and move down there. And we obviously sourced them 
very carefully to make sure that they weren't about to go to 
one of the areas that you were talking about, where they would 
be supporting counterterrorism. And we have them go down there 
for a short amount of time, and then come back in plenty of 
time to get their readiness back up to speed before they go to 
do counterterrorism type actions.
    Mr. Norcross. So there is no impact to the force readiness 
for counterterrorism by sending those 2,500 troops?
    General Hecker. I won't go as far to say there is no 
impact, but I will say that we have minimized that impact where 
it is not that great.
    Mr. Norcross. There have been times that you had been 
requested for help that you haven't been able or you chose not 
to answer the call for Homeland Security in the past.
    General Hecker. Yes, sir, that is the case. As a matter of 
fact, I mean, even in the recent past, they have asked for 
things that we have not provided them.
    Mr. Norcross. And we understand that. You make a threat 
assessment throughout our world and put the troops where they 
are needed. So is this one of the times that the threat has 
diminished that we can send the troops there?
    General Hecker. Where the----
    Mr. Norcross. Send the troops to the southern border versus 
elsewhere in the world.
    General Hecker. I think we can send some troops down to the 
southern border, if requested, to fill a gap. And we can do 
that, but what we do before we do that is assess to make sure 
that the readiness will not decrease to an extent where we 
can't fulfill our other missions. And in this case, what we are 
talking about is counterterrorist missions.
    Mr. Norcross. Certainly appreciate that.
    Just to follow up on the recruitment techniques because, A, 
we are trying to stop the attacks now, but we are also trying 
to stop the attacks from future--through recruitment. And that 
brings me to my question. The government-as-a-whole approach, 
there is a lot of rhetoric going on that talks about Muslim 
bans, withdrawal from Syria.
    Is this a positive thing that cuts down on the recruitment 
in social media by our enemies? Mr. West, you certainly could 
address that.
    Secretary West. Sorry, sir, could you repeat the first part 
of that question?
    Mr. Norcross. We are talking about recruitment for the 
future by terrorism groups across the board. Their use of 
social media is quite high. It enables them to have a 
tremendous reach. So, when we look at some of the things that 
are taking place immediately, we are pulling out of Syria. Do 
you see an uptick in their recruitment saying, ``The Americans 
are leaving, we have a chance''? Is this a positive statement 
when we say we are leaving?
    Secretary West. We have not, to my knowledge, sir, seen an 
uptick in recruitment as a result of the announcement to 
withdraw from Syria.
    Mr. Norcross. Thank you. I yield back.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, I have a couple of questions about AFRICOM [U.S. 
Africa Command]. And I was at Camp Lemonnier not too long ago 
with a couple of other members. And questions then about AMISOM 
[African Union Mission in Somalia] and whether or not it was 
going to stay together. But the thing that struck me about Camp 
Lemonnier was the lack of assets that it was General Furness at 
the time had at his disposal.
    And as we talk about the National Defense Strategy, I 
recognize that China and Russia are the focus in that. But when 
we start talking about pulling assets out of a region, that has 
got to have an impact on how our partners feel about our 
commitment to that region.
    And so, with regard to Somalia in particular, there is 
discussion in here about the terrorists that are in the south. 
There are also terrorists that have moved into the north part 
of Somalia as well. And as we talk about the assets, General, 
what assets are being pulled out of Africa? Can that be 
disclosed in here? I mean, it seemed to me that Camp Lemonnier, 
quite honestly, needed significantly more assets, especially 
with the Chinese and the activities that they are engaged in in 
Djibouti.
    General Hecker. I think it is hard to ever pull out any 
assets. And I do think, as we go a little bit deeper on this 
subject, I think it would be a little bit better if we did that 
in a closed session and we will be happy to discuss that.
    Mr. Scott. I know that Camp Lemonnier is in Djibouti, but 
that is where the Somalia--those are the assets that we use for 
the fight in Somalia.
    A couple of other questions. As foreign fighters in Syria 
and Iraq that are currently fighting for ISIS or other 
terrorist groups, as we have seen the collapse of the 
territory, as these fighters migrate into other regions, how is 
that going to impact our National Security Strategy, and do we 
expect these fighters to return to their homeland, or do we 
expect these fighters to migrate to other areas, like the Horn 
of Africa, where some of the others have set up camp?
    Secretary West. Congressman, it is a good question. There 
are a large number of foreign fighters that the SDF has 
currently detained that we and our partners view as very high 
threat. And then, as you mentioned, there are the 40,000-odd 
fighters that infiltrated and those that remain who may go back 
to their territories or may stay in the fight in Iraq and 
Syria.
    I think the broad assessment from the intelligence 
community is both. That number one, we have got to stay very 
connected with our international partnerships and begin to 
track these folks; there is a biometric effort underway which 
we can discuss in a closed session, to make sure that we are 
connected and follow these folks. And then there is an 
insurgency, where many of these people will simply go 
underground in this same locale and stay in the fight until 
they are captured or killed.
    Mr. Scott. I would just, you know, again remind people that 
Africa is larger than China, the U.S., India, and the majority 
of Europe geographically. There are over a billion people on 
the continent of Africa, better than 50 different states--or 
countries, I should say, in Africa. A lot of challenges there. 
Not possible to resolve it without the partnerships.
    And I just want to make sure that as we talk about the 
moving of any assets, that that is coordinated with our 
partners in such a manner that they recognize that we are 
committed to stamping out these terrorists, regardless of where 
they are.
    I yield the remainder of my time.
    Gentlemen, thank you for your service.
    The Chairman. Thank you.
    Mr. Moulton.
    Mr. Moulton. Gentlemen, thank you both for your service to 
the country.
    I just wanted to start, General Hecker, with you and the 
withdrawal from Syria. We have talked a lot about how it is 
important to keep up the pressure on ISIS, and that is one of 
the most important lessons that we have learned overall from 
the global war on terror. How does our precipitous withdrawal 
from Syria, at the request of the Turkish President, keep up 
the pressure on ISIS in Syria?
    General Hecker. It is going to be a very difficult 
situation. What we need to do is work with our allies, work 
with the SDF, work with the surrounding countries, whether that 
be Iraq, Jordan, or Turkey, on how we can keep the pressure on, 
enabling some of our partnered forces outside of Syria without 
having boots on the ground.
    Mr. Moulton. So, General, what you are saying is it does 
not keep up the pressure and so, therefore, it is going to be 
difficult to do so.
    General Hecker. No, I said it is going to be difficult to 
keep up the pressure, but that is what we are doing. A detailed 
plan----
    Mr. Moulton. So you agree with my statement that it does 
not keep up the pressure to withdraw from Syria?
    General Hecker. I will say that there will be a decrease in 
the amount of pressure that we will be able to apply, but we 
will still be able to apply pressure.
    Mr. Moulton. We are playing a game of semantics here, but 
it is pretty clear it decreases the pressure.
    Mr. West, your former boss, Secretary Mattis, disagreed 
with the President's plan to withdraw from Syria. Do you think 
he was wrong?
    Secretary West. No, sir.
    Mr. Moulton. Thank you very much. Mr. West, when Secretary 
Carter came before the committee in 2017, he talked about a 
mission statement for the war against ISIS, the fight against 
ISIS. And he said, the mission statement is ``a victory over 
ISIL [Islamic State of Iraq and the Levant] that sticks.'' Is 
that still the mission statement from the Department?
    Secretary West. Congressman, I am not sure what the 
specific mission statement is, but I would say that, since that 
time, ISIS has morphed, and so we will likely need a new 
mission statement. What I mean by that is there is a physical 
component to this fight. The physical caliphate is very nearly 
defeated. And then there is a massive ideological and 
underground network. They have globalized. We can talk in a 
closed session about the number of countries they were in in 
2014-2015 and the number of countries that have ISIS affiliates 
today. So it is a different fight altogether.
    Mr. Moulton. Mr. West, at the time General Dunford was 
holding a meeting every 3 weeks with the Department of State. 
And he stated that even so, he was not satisfied with the level 
of coordination. I would offer that another critical lesson we 
have learned from the global war on terror is that a military 
solution alone doesn't defeat the terrorists. You need to have 
a whole of government. You need to have a political plan. 
General Dunford certainly recognized this, and he said that 
even meeting every 3 weeks was not enough to do the 
coordination that was required.
    How has that improved over the last 8 months, that 
coordination?
    Secretary West. Sir, I can answer that, over the last 
month, there has been a meeting that includes the State 
Department and many agencies that occurs two or three times a 
week.
    Mr. Moulton. Mr. West, you spent a lot of time in Iraq, and 
I am grateful for your service there. What is the current 
purpose of U.S. troops in Iraq, and what is the counterterror 
mission there?
    Secretary West. Sir, I think the purpose is twofold. Number 
one, we support the Iraqi Government; we still do some advising 
and assisting of their security forces. And, number two, this 
gives us regional reach.
    Mr. Moulton. Mr. West, I would agree with those. You did 
not mention countering Iran, which the President has stated is 
a new mission for the troops in Iraq. Are you aware that 
Congress has not given authorization to counter Iran?
    Secretary West. Yes, sir.
    Mr. Moulton. And are you aware that our troops are in Iraq 
at the request of the Iraqi Government?
    Secretary West. I am fully aware of that, sir.
    Mr. Moulton. Mr. West, how do we deal with the fact that 
Iraq has indicated that it is unwilling to continue hosting 
American troops?
    Secretary West. Sir, I think that is mixed, and we are 
extremely hopeful that they will continue this relationship.
    Mr. Moulton. Thank you.
    One last question, General Hecker. We talked a lot about 
the success of the war on terror and preventing terror attacks 
at home, and there is some real truth to that. We also heard 
that there are four times as many Sunni extremists now than 
versus 9/11. How does the amount of territory compare? Do Sunni 
extremists control more territory now than on 9/11 or less?
    The Chairman. And if you could be fairly quick in that 
answer, that would be helpful. The gentleman's time has 
expired.
    General Hecker. I will have to get back to get the exact 
numbers on that.
    [The information referred to is for official use only and 
retained in the committee files.]
    Mr. Moulton. Thank you, General. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here.
    And, Mr. West, I appreciate your candid response to the 
comment. General Mattis is going to be certainly missed. And in 
the line of questioning, I am also one of those ones; I was a 
product of the military. And for years, you had the State 
Department over here and you had the Defense Department over 
here and never the two shall mix. Maybe that is an 
oversimplification of it, but that was a huge, huge problem.
    And I want to go off script just a little bit, in light of 
the fact that very, very concerned about some of our allies, 
and I put that in quotes, Turkey, Saudi Arabia, the Emirates, 
Qatar, maybe Egypt, and the issue of the Muslim Brotherhood, 
which may have contributed, obviously, to the situation in 
Turkey and the strain on our relations on many of these host 
nations that we need so desperately if we are going to continue 
the fight in the future and, of course, be a key ally to 
Israel.
    In your calculus, when you make that up, and I know we 
talked about ISIS and we can talk about al-Qaida and Hamas and 
Hezbollah and what have you, but the Muslim Brotherhood, at 
least in regards to Turkey and Egypt and Saudi Arabia, 
depending upon what side of the fence, it influences a lot of 
these actions or decisions. Can you comment on that, please? 
Mr. West. I will keep you in the hot seat for a while.
    Secretary West. The Muslim Brotherhood is not a named 
terrorist group, to my knowledge, by the State Department, nor 
do we target them in counterterror operations.
    Mr. Cook. No. The reason, I am looking at it more, and I am 
going into foreign affairs. And, obviously, if they are going 
to meddle in Egypt or they are going to create situations in 
Qatar, which might strain relationships with Saudi Arabia or 
the Emirates, and, of course, the bases that we have, 
particularly in the UAE [United Arab Emirates] and Qatar, this 
is going to be--and Turkey is a key NATO member.
    And I am just saying that is not a variable or, in general, 
maybe I am just worried about that situation and maybe I 
shouldn't be.
    Secretary West. Sir, I don't know enough about it to answer 
your question.
    Mr. Cook. General, from a military standpoint? NATO is 
huge.
    General Hecker. From a military standpoint, we have no 
orders, you know, to go after the Brotherhood right now. So, 
obviously, they have effects around the world. I am not as well 
versed, as well, on this, but it is something that we can both 
look at and give you some comments back on.
    Mr. Cook. Okay. Thank you. I yield back.
    The Chairman. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Violent ideologies can serve as a vehicle for legitimate 
local grievances, ranging from the lack of economic opportunity 
to political disenfranchisement and human rights abuses. How is 
our current counterterrorism approach addressing these 
underlying drivers of recruitment? To both of you.
    Secretary West. Thank you, Congressman. The national 
counterterror strategy does address this. This is a very, very 
difficult problem, and we have not done well with this in the 
past. I think broadly, from a DOD perspective, one of the 
lessons we learned is that this is where we try to empower our 
local partners. When we have tried to message, especially from 
a military, to do counter, say, radicalization efforts, it has 
been challenging, but we are seeing inroads at the local 
grassroots level.
    Mr. Carbajal. General.
    General Hecker. I think a lot of this, you know, you have 
to get to the nonkinetic effects. What can we do nonkinetically 
to influence the amount of recruits that these radical 
extremists are getting. And I think we are tackling that 
problem, but I think we can put some more pressure there as 
well.
    Mr. Carbajal. The administration considers both Syria and 
the Palestinian territories vulnerable to radicalization yet 
pulled back nearly $200 million of reconstruction funds for 
Syria as well as aid to the Palestinian civilians.
    Do you agree that the administration's policy of slashing 
reconstruction and stabilization funds is counterproductive and 
actually makes it more difficult to effectively implement a 
counterterrorism strategy, and especially when we talk about 
the three points of pressure that we have heard, at least I 
heard when I was in Afghanistan in December of 2017. The best 
way to address many of these issues are diplomatic, social, and 
militarily.
    So what would you say to the slashing of those 
reconstruction funds?
    General Hecker. Unfortunately, I don't have the details of 
why those funds were slashed, but I will agree with you that 
reconstruction efforts do help prevent recruiting and further 
radicalization, as long as you have security forces in place 
that can make sure that the area stays relatively safe.
    Mr. Carbajal. When do you think we might be able to get an 
update on the progress of these three approaches, not just the 
military approach that we oftentimes hear about, but the 
diplomatic and the social combined as a cohesive 
counterterrorism strategy?
    General Hecker. It might be good, you know, instead of just 
having military up here is maybe we have a hearing with our 
State brethren, and we can talk some of the diplomatic 
questions that come up at the same time. Because, you know, as 
much as we try to get together, just like General Dunford said, 
you know, three times a week isn't enough. Now, we do have the 
Global Engagement Center, which is a State Department kind of 
run thing, that we go over there pretty much weekly, and we try 
to engage on things. We have different meetings on the Joint 
Staff where we have Ambassador Khalilzad. We have Ambassador 
Jeffrey. And that used to be a daily meeting when we were 
talking Syria kind of things.
    I think the more that we can work together with the other 
interagencies, I think we have seen a military solution isn't 
working, and we need to make sure that we include our 
diplomatic efforts and the whole of government.
    Mr. Carbajal. Thank you. And, moreover, the environment 
here at home affects the counterterrorism operations we carry 
out globally. The fearmongering approach this administration 
has pursued while alienating the Muslim population here at home 
has only made it easier for terrorists to operate, especially 
in terms of recruitment. A successful counterterrorism strategy 
requires a whole-of-government approach, which means our 
messaging and actions need to be consistent and aligned.
    I would assume you agree with that.
    General Hecker. Yes, Congressman.
    Mr. Carbajal. Thank you. I yield back.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    And Mr. West, thank you for being here.
    And General Hecker, I should point out that I used to work 
with a Colonel Hecker, a Brigadier General Hecker, and I got to 
visit him in Afghanistan. And you have my utmost respect, you 
both do. So thanks for being here.
    I think a holistic strategy is required to defeat ISIS and 
al-Qaida. Kinetic targeting, going after their finances, the 
internet and how they do their recruiting, their ideology.
    Is there an area that you think that we are a little light 
on that we need to put more emphasis in a holistic strategy?
    Secretary West. Yes, sir, the ability of terrorists to use 
cyberspace as their stage.
    Mr. Bacon. So more focus on going after the cyber arena.
    How do we do a better job with the ideology portion? It 
seems to me that is their center of gravity. I know we may talk 
about this in the next forum, but this is what they use to 
recruit through the cyber, and I don't know how we do a good 
job in trying to counter that ideology.
    Can you expand on that at all? How do we go about doing 
that? Can we do that on our own, or do we have to use our 
moderate allies, for example?
    Secretary West. Sir, for specific tactics, in a closed 
session, we can go over exactly what we are trying to do in 
cyberspace, and I think it has been very effective. But 
stepping back more broadly, in terms of the ideology, it 
absolutely must run through our local partners.
    Mr. Bacon. Okay. Do we have any evidence of state 
sponsorship of ISIS or al-Qaida at this point? I know we did 
the previous decade.
    Secretary West. Sir, that is a question for the 
intelligence community. Not to my knowledge.
    Mr. Bacon. Let me just maybe do one follow-on. About a 
decade ago, we knew that Iran was harboring or sheltering some 
al-Qaida leadership. Do we have any evidence that we can talk 
about in this forum if that is continuing?
    Secretary West. We cannot talk about that in this forum, 
sir.
    Mr. Bacon. I appreciate the word ``deliberate'' when we 
talk about the pullout out of Syria. I think it requires a very 
deliberate process. I think you have bipartisan concern here 
that if we don't do this right, we will allow ISIS to 
reconstitute, and that would be a tragic mistake.
    One last question: In regards to the talks with the 
Taliban, is the Afghanistan Government involved in these talks?
    General Hecker. I think so. What you have seen so far is 
the initial, you know, diplomatic efforts, but I think, to get 
a closure to this, it can't just be between the U.S. and the 
Taliban. It needs to have President Ghani. It needs to have the 
Afghan Government and the Taliban that will sit down together 
and come up with an agreed-upon reconciliation. And I know that 
the diplomatic efforts that we are doing right now are going 
towards that goal.
    Mr. Bacon. I was a little concerned with the reporting 
yesterday that show that the government has not been involved. 
It seems to me that they need to be an integral part of this.
    So, gentlemen, thank you for being here, appreciate both of 
you and your leadership.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    I didn't think I would necessarily be asking about 
terrorism at the southwest border in today's hearing, and I 
didn't think I would because, as I went through the 25-page 
National Strategy for Counterterrorism, the Western Hemisphere, 
other than passing reference to the homeland, there is no 
mention of the Western Hemisphere. There is mention of Africa 
and Asia, Europe, and the Middle East. There are 25 references 
to specific countries in the Middle East, and no references to 
any nation in South, Central America.
    But, General Hecker, you made a comment that adds to the 
confusion that I have about the administration's analysis or 
assessment of the terrorist threat at the southern border. So 
let me ask this question, maybe you can clarify.
    Early January, the press office in the White House said 
4,000 known or suspected terrorists come into our country. The 
most vulnerable points of entry are at our southern border. 
Days later, the DHS Secretary says 3,000 special interest 
aliens, which she defined as those terrorist travel patterns 
and/or known or suspected ties to terrorism. She says 3,000 and 
that we have seen a twofold or an increase at the southwest 
border.
    Now, the State Department has downplayed that. But your 
comment in response to a question and your reference to 49 
buses from the southern border, I just need you to clarify. Do 
we have a terrorist threat in the Western Hemisphere that is 
based in Central America and that is moving northward, 
northerly, to our southwest border?
    General Hecker. I am not aware of any terrorist threat on 
those 49 buses. And I didn't mean to imply that there are any 
terrorists on those 49 buses. We were just asked to help 
because we were getting a massing of a caravan of roughly 2,000 
people, of which I am not aware that there is a single 
terrorist in there, and I didn't mean to imply that.
    Mr. Brown. Okay, and I appreciate that. You also mentioned 
but you couldn't complete a crisis reaction force. You 
mentioned that in the context of Active Duty, you know, new 
Active Duty deployments to the southwest border. Are those 
deployments to the southwest border, the most recent Active 
Duty deployments, the types of forces that we typically deploy 
in a counterterrorist operation?
    General Hecker. No. Okay. I think I see where the--what we 
had is we have Reserve forces that we call crisis reaction 
forces that were just going to be used against the southern 
border in case there was a mass at one of the points of entry.
    Mr. Brown. Okay, I got that. We had a briefing last week. I 
just want a clarification that we are not deploying special 
operators----
    General Hecker. No, no.
    Mr. Brown [continuing]. Special forces, SOCOM [U.S. Special 
Operations Command] forces, to the southwest border because of 
some perceived or fabricated concern of a terrorist threat.
    General Hecker. These are engineers and cops is basically 
what it is, and it is the most recent, and it is roughly 240 
people that left yesterday.
    Mr. Brown. Okay, thank you. Let me shift my question. It 
sort of picks up where Representative Carbajal and Moulton 
were. Beginning with the Bush administration--this may be more 
for Mr. West--the United States made a concerted effort to use 
foreign aid as an instrument in countering terrorism. During 
the Obama Presidency and under Republican majority Congresses, 
foreign aid was funded at a fairly constant level of 
approximately $50 billion annually.
    The National Strategy for Counterterrorism, which was 
released in October, as you know, declares that we will, quote, 
``use all available instruments of United States power to 
counter terrorism,'' unquote. Yet President Trump's budget, his 
budgets in each of the last 2 years has reduced foreign aid by 
25 percent each year, only to have it restored by Congress.
    Do you believe that reducing foreign aid by this amount 
supports our strategy of using all instruments available to the 
United States?
    Secretary West. No, Congressman, I don't.
    Mr. Brown. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Mr. West, what is the goal of Ansar Allah in Yemen?
    Secretary West. I think we should take that into a closed 
session, Congressman, if we may.
    Mr. Gallagher. I would submit that the organization's 
formal slogan--death to America, death to Israel, curse upon 
the Jews, victory to Islam--gives us a sense of the general 
direction. If the U.S. withdrew its forces from Yemen, would it 
negatively impact the Saudi-led coalition's ability to defeat 
Ansar Allah?
    Secretary West. So I want to make clear that our 
counterterror operations in Yemen are absolutely distinct from 
the Houthi-Saudi war.
    Mr. Gallagher. So what are our goals with respect to the 
Houthi movement and any Iranian presence in Yemen?
    Secretary West. Sir, our counterterror goals are distinct 
from the two actors you mentioned. Again, we in Yemen 
specifically and with limits target AQAP and the ISIS Yemen 
factions.
    Mr. Gallagher. In 2015, Houthi rebels obtained as many as 6 
operational launchers and 33 Scud-B short-range ballistic 
missiles. Do you assess that the Houthis are working to acquire 
additional weapons, such as antiship missiles, from Iran?
    Secretary West. I don't have any information to indicate 
that, Congressman.
    Mr. Gallagher. If we were to withdraw any support to our 
regional partners from Yemen, would it, in your opinion, ease 
the ability of the Houthis to acquire additional advanced 
weapons in Yemen?
    Secretary West. It depends which troops, but broadly, yes, 
Congressman.
    Mr. Gallagher. In 2016, the Houthis fired at the USS Mason. 
Do you assess that the Houthis still have a desire to attack 
U.S. Navy or civilian ships in the area?
    Secretary West. That is an intelligence question, sir, and 
I don't have the answer to it.
    Mr. Gallagher. If provided an opportunity, what kind of 
threat might Houthi or Iranian military power in Yemen pose to 
the free flow of commerce through the Bab-el-Mandeb Strait?
    Secretary West. Sir, I believe that roughly 10 to 20 
percent of global oil flows go through the strait, perhaps a 
little more. So it is a key strategic choke point.
    Mr. Gallagher. So I guess more broadly, I understand that 
our mission there, as you put it, is narrowly focused on al-
Qaida in the Arabian Peninsula, other Sunni terrorist groups 
that might threaten our interest. Should we consider 
designating a group like Ansar Allah as a foreign terrorist 
organization?
    Secretary West. Sir, I think that is more appropriately 
taken on by the intelligence community, just because I lack the 
underlying information to make that decision.
    Mr. Gallagher. And looking more broadly across the region, 
as you pursue your counterterrorism goals, would it be fair to 
say that ISIS is sort of your number one priority in the Middle 
East, or ISIS combined with al-Qaida and its adherents? How 
then do you assess Iranian terrorist proxies in the region? In 
other words, let me put it differently. If our goal--and I 
think it is the administration's regional policy to roll back 
Iranian influence; correct me if I am wrong on that point--but 
if that is the goal, then what is our posture with respect to 
Lebanese Hezbollah and other Iranian proxies in the region?
    Secretary West. Sir, this is an authorities question 
largely, but to what the basic goals are and when we talked 
about prioritization, our first priority as laid out in the 
National Counterterrorist Strategy is to hit those groups that 
are directly threatening the homeland. The Iranians are not 
doing that.
    Mr. Gallagher. Thank you. I yield the balance of my time.
    The Chairman. Thank you. If I could, just a couple quick 
followups there because I think that is a real issue in Yemen. 
Long before the current Houthi uprising, we had an interest in 
Yemen because, well, al-Qaida in the Arabian Peninsula was 
present there--and this was mentioned in opening statements--
tried to conduct attacks against the U.S.
    But would you consider the Houthis to be an aspiring 
transnational terrorist group, or are they more interested in 
what is going on in Yemen specifically and in their interests 
there? I mean, when you are looking at all these different 
threats, personally, it doesn't seem to me that that is what 
the Houthis are trying to do. Now, there is still an al-Qaida 
in there. And I will emphasize that those of us who are 
concerned about the Saudi Arabia and UAE campaign against the 
Houthis have always been clear: we do not want to withdraw our 
effort to contain the terrorism threat coming out of Yemen.
    But the terrorism threat is not the same thing as what the 
Houthis are doing. Is that not correct? Not to say that there 
isn't a problem there, but the Houthis are not actually an 
aspiring transnational terrorist group, are they, in your 
estimation? Is that part of your planning is considering that 
they might be planning those sorts of attacks?
    Secretary West. Sir, they are not.
    The Chairman. Okay.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. West, your office has been tasked with the oversight of 
U.S. Special Operations and Command, and you have policy 
oversight over strategic capabilities and force transformation.
    One of our strongest tools I think that we have in 
combating terrorism is our civilian workforce, and could you 
share with us how involved they are with the Pentagon and the 
various combatant command J2s [intelligence directorates], and 
how mission critical these civilians are, and how often they 
are deployed in the zones, in war zones?
    Secretary West. Sir, the civilian-military partnership is 
crucial. And U.S. SOCOM, as you mentioned--and thank you for 
bringing it up--our special operations forces around the globe 
represent about 2 to 3 percent of the force, but have taken 
about 40 percent of the overall casualties in the last 2 years.
    But from what I have witnessed sitting in this seat for 
about 14 months, the partnership with civilians is excellent 
and there is a lot of intellectual firepower that comes in 
those ranks as well.
    Mr. Keating. Thank you. And your responsibility too, our 
office would really look forward to working with you to 
incentivize, you know, the civilian-military people too and 
make sure that some of the treatment they get, for instance, if 
they are deployed in a combat zone that the same creditor kind 
of relief might be applied. So we would like to work with your 
office on that in the future, and thank you for your comments 
in that regard.
    Quickly, this week the lead inspector general put out a 
report that gave a status update on OIR [Operation Inherent 
Resolve], the military campaign against ISIS in Iraq and Syria. 
There are a couple of quotes I would like to share from that. 
``If Sunni socioeconomic, political, and sectarian grievances 
are not adequately addressed by the national and local 
governments of Iraq and Syria, it is likely''--``very likely,'' 
I think they said--``that ISIS will have the opportunity to set 
conditions for future resurgence and territorial control.'' 
They also went on to say that ``absent sustained 
counterterrorism pressure, ISIS could likely resurge in Syria 
within 6 to 12 months.''
    So do you believe that and have any confidence that the 
Sunni grievances will be addressed so that the conditions are 
not in place for a resurgence of ISIS that way, those 
underlying Sunni grievances that were quoted in this report?
    Secretary West. Sir, that question might be more 
appropriately answered by my regional counterpart, but I will 
say that I read the report that many of the conditions that 
gave rise to ISIS still exist, with one major exception, and 
that is the SDF and the international coalition that is there 
right now.
    And, in my judgment and as General Votel said yesterday, he 
has supreme confidence that our special operations forces and 
conventional forces, along with our allies, can continue to 
keep up the pressure to prevent a resurgence.
    Mr. Keating. Thank you. I think the other questions I have 
will be dealt with in a different setting, so I yield back, Mr. 
Chairman.
    The Chairman. Thank you.
    Mr. Waltz.
    Mr. Waltz. Thanks so much for coming today. I appreciate 
your time.
    I am struck by your title here of the handout: Conditions 
favor expanded ISIS network insurgency in 2019, showing the 
growth from 2013 to 2018 worldwide. Would you agree that the 
statement that ISIS may be defeated as a caliphate in Iraq and 
Syria but is not defeated as a movement?
    Secretary West. Yes, sir, I do agree with that.
    Mr. Waltz. Okay. And I think I have heard you say--and I am 
a Green Beret by background so I certainly buy into this--that 
by, with, and through is kind of the operative strategy for 
defeating ISIS, particularly in Syria.
    Secretary West. Yes, sir.
    Mr. Waltz. Okay. So ``with'' is a key term there. And, as I 
understand the pullout strategy, we will no longer be with our 
allies on the ground. Is that correct?
    Secretary West. We will not be co-located, sir.
    Mr. Waltz. So I heard you mention remote advise and assist, 
and I think referenced that was successful in the past. I don't 
know that I would agree with that statement, that it was 
successful under the Obama administration; hence, why we had 
such a burgeoning caliphate in the first place.
    So can you explain to me how we plan to conduct remote 
advise and assist? And if we need to take this in the other 
setting, that is fine.
    Secretary West. Sir, I would prefer we take this in the 
other setting. And both General Hecker and I can directly 
address this question.
    Mr. Waltz. Okay. Would you just agree then that it is more 
effective to be with on the ground, from an air strike 
capability, from understanding who is who and the human 
terrain, and just generally being more effective, is it more 
effective to be with than to not be with?
    Secretary West. Congressman, it is much more effective to 
be co-located with your partners.
    Mr. Waltz. Okay. So is the objective now, as you understand 
the strategy, to withdraw or to win and stabilize that region 
so that we no longer suffer attacks in the United States and 
with our allies? Which is the strategic objective, to get out 
or to be successful?
    Secretary West. The strategic objective is to prevent an 
attack on the homeland, even from this region and from Syria. 
The order we have been given is a deliberate withdrawal while 
continuing the fight in the MERV [Middle Euphrates River 
Valley].
    Mr. Waltz. Even though we are more effective, though, with 
and on the ground. So we now have a less effective means to 
achieve that objective. Do you agree with that statement? We 
will not be as effective remotely as we will on the ground with 
a small force presence?
    Secretary West. Sir, militarily, we would be less 
effective.
    Mr. Waltz. Separately, related to Syria but separately, the 
Idlib pocket where al-Qaida still has a presence, what is our 
counterterrorism strategy for affecting al-Qaida and degrading 
and continue the destruction of al-Qaida in that pocket?
    Secretary West. Congressman, that is a very important 
question that we need to take to a closed setting.
    Mr. Waltz. Would you say that Turkey has the same 
counterterrorism, counterinsurgency military capability as the 
United States?
    General Hecker. No, Congressman.
    Mr. Waltz. Okay. So we have two questions here. We have 
Turkey's will to take on ISIS, which I would submit Turkey is 
much more concerned with the Kurds than with ISIS. But then we 
also have the capability. And if you look at the geography down 
in the MERV, the Euphrates River Valley where ISIS remains, all 
the way in the southern part of Syria and then Turkey in the 
north, would you say, in your military opinion, that Turkey has 
the ability, the capability to destroy and to keep ISIS 
suppressed in that pocket?
    General Hecker. Not without help.
    Mr. Waltz. With whose help?
    General Hecker. Either our help or other allies' help.
    Mr. Waltz. Okay. Separately, just my time remaining, to 
Afghanistan, the Afghanistan-Pakistan border, spent a little 
bit of time there. Half the world's terrorist organizations 
still exist there.
    Do you think the Taliban has the capability--assuming that 
we buy into the fact that they have the will, do they have the 
capability to keep ISIS and al-Qaida out of Afghanistan?
    General Hecker. When you say ``out,'' you know, zero, no.
    Mr. Waltz. Well, training camps, the ability to then stage 
attacks on the United States and West. Does the Taliban, 
setting will aside, which I think is highly debatable, do they 
have the capability, the military capability if they renounce 
those groups to then keep them suppressed?
    General Hecker. I think assuming the government has come 
together and you now have Taliban as well as the ANASOF [Afghan 
National Army Special Operations Forces] and ANA, and they are 
all working together----
    Mr. Waltz. Working together, big assumption.
    General Hecker [continuing]. Which is a huge----
    The Chairman. Sorry. We are going to have to cut this off, 
and you can continue in closed. I want to get to other members.
    Mr. Kim.
    Mr. Kim. Yes. Thank you so much.
    I appreciate everything that you said so far. I just wanted 
to delve into a few things. Certainly, with the loss of 
physical space that ISIS has had in Iraq and Syria, that is one 
measure of progress, but we know never to underestimate the 
threat that is faced.
    I remember in the early days of Operation Inherent Resolve, 
General Dempsey at the time often always talked about an 
enduring security, that that was the goal this time. That, 
during my lifetime, we have had three wars in Iraq, every 12 
years of my life. How do we make sure that this is one that is 
going to be an enduring security going forward, that we measure 
this only by whether or not it is our last war in Iraq as the 
benchmark for success?
    On that front, you talked about in your written statement 
that Operation Inherent Resolve provides an excellent template 
for future operations. While I agree that certainly that could 
be the case for when we face a crisis situation as we did in 
2013-2014, we hope that we are not in that kind of situation 
again where it requires that level of terrorist threat before 
we take some actions of that magnitude.
    Now, what got us in that situation in the first place was 
the failure to prevent these types of crises. Now, what I saw 
was both the rapid rise of ISIS, but also the rapid attrition 
and degradation of the skills and capabilities of the Iraqi 
security forces from all levels, including some of the most 
high-performing elements like the Counterterrorism Services, 
CTS. So while I certainly think the train, advise, assist 
mission that we have engaged in has been successful in 
bolstering up those capabilities, what I still don't understand 
is, what is the long-term goal and what are we trying to get 
towards so that we can ensure that there is going to be an 
enduring security that doesn't require a constant train, 
advise, assist physical presence on the ground?
    So I wanted to ask, what are we doing differently this 
time? What does success look like for us when it comes to the 
train, advise, assist to make sure that those skills don't 
degrade and degradate?
    General Hecker. Well, what I can tell you is, you know, the 
CTS took a pretty hard hit when they cleared out ISIS over the 
last 2 or 3 years. Their numbers decreased. The Iraqi National 
Army took a lot of casualties as we went through. So we are 
building back up, but they are a little bit tired, and we have 
got to get their readiness going.
    It is going to take kind of like what we have, you know, in 
our forces. It is going to take the CTS doing special ops 
stuff, and it is going to take the Iraqi National Army to build 
up and work together cohesively along with an air force. Now, 
we have elements that are training all three of those in Iraq. 
So we just stood up a Canadian two-star command, the NATO, it 
is called NATO Mission in Iraq, just stood up here a couple 
months ago, and they are going to be concentrating on the 
conventional forces. We have an Air Force wing that is out 
there, U.S. Air Force, that is teaching them how to fly F-16s 
and other sorts of aircraft. And then we have the CT force.
    And what we are trying to do is put that all together and 
make sure that they know how to interact well with one another. 
But that is going to be an ongoing mission before they can 
interact and be able to take care of these terrorists 
themselves.
    Mr. Kim. That is helpful. I think for me, where I am having 
trouble understanding the full totality is there will always be 
a use for train, advise, and assist. They will always be useful 
to helping the Iraqi security forces, but what is the actual 
metric by which we are measuring when we no longer need a 
physical presence of American soldiers on the ground to be able 
to help them do that?
    General Hecker. I think the metric is going to be when, you 
know, you have train, advise, assist, accompany. If you can get 
rid of the accompany and just do train, advise, assist. And 
then if you can get rid of the assist, i.e., the enablers, 
right, some of our ISR [intelligence, surveillance and 
reconnaissance] assets stuff. And then you are just training. 
And then the obviously big metric is when you don't have to do 
any of it, and they can take care of this all by themselves.
    So I think you just kind of peel back the level of effort 
that we are participating in the CT mission, and as you peel 
that back, those are your metrics.
    Mr. Kim. That is helpful. I think just to conclude here, my 
concern here is that we have invested a significant amount in 
helping the Iraqi security forces and CTS. When I see that 
these metrics weren't engaged in the way that you would just 
talk to me about on the Syria side, I worry about how we are 
going to be engaging on the Iraq side of the equation here.
    Just with my last second, I did want to just point out 
something, which is with the Global Engagement Center that you 
talked about before, we still, after 2 years, don't have a 
director appointed to that center. So these are the types of 
efforts that we need to move forward on so the administration 
is strong on that civilian-military partnership. Thank you.
    The Chairman. Thank you.
    I will point out we are going to stop at noon because I 
want to get to the classified setting. So we will get to as 
many people as we can, but that is just the way it is going to 
have to happen.
    Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    General, in your opening statement, you say, you write, 
quote, ``We assess that both ISIS and al-Qaida are degraded.''
    Is it not true that ISIS-K [Islamic State of Iraq and 
Syria-Khorasan Province] is growing in Afghanistan?
    General Hecker. I don't have indications they are growing. 
In the classified session, I can give you the current numbers 
that we have in Afghanistan, but I will tell you that the al-
Qaida numbers in Afghanistan are extremely low.
    Mr. Banks. But ISIS-K, you can't say for the record whether 
ISIS-K is growing in Afghanistan?
    General Hecker. I have not seen that.
    Mr. Banks. It is well reported that ISIS-K is growing in 
Afghanistan. You don't agree with that?
    General Hecker. I would agree that it has been state----
    Mr. Banks. Mr. West, would you agree that ISIS-K is growing 
in Afghanistan today?
    Secretary West. Sir, on balance, if we subtract their 
casualties, our estimated casualties that we have inflicted on 
them from their numbers a couple years ago, I think the answer 
is yes.
    Mr. Banks. Okay. Do we believe that ISIS-K potentially 
poses a threat to the homeland?
    Secretary West. The intelligence community believes that, 
yes, sir.
    Mr. Banks. General Votel was quoted recently saying, quote, 
``We have no illusions about reconciliation with ISIS-K. Our 
mission is to destroy this organization,'' end quote.
    How do we destroy ISIS-K if we pull out of Afghanistan, Mr. 
West?
    Secretary West. Sir, first, we have received no orders to 
pull out of Afghanistan and our CT mission there remains 
exactly the same, which is focus, and ruthless focus, on ISIS-K 
and al-Qaida.
    Mr. Banks. General, can you describe the threat that ISIS-K 
poses that makes them different from the Taliban?
    General Hecker. Their tactics are pretty ruthless. We see 
some of the things that they do. They like high-profile 
attacks. They like to go to downtown Kabul and take a suicide 
bomber and get as many civilians around them as they can and 
blow themselves up.
    Mr. Banks. Is it easy to speculate that if we did draw down 
substantially or pull out of Afghanistan, that ISIS-K would 
pose a greater threat to the stability of Afghanistan than the 
Taliban?
    General Hecker. I think it depends under, you know, what 
metric we withdraw and what reconciliation efforts Ambassador 
Khalilzad was able to make. I think if we have a united Taliban 
with the forces that we have been building up along and they 
choose--big if, right--but if they choose to take on ISIS, I 
think there is a time in the future where we could see them, 
you know, keeping ISIS at bay.
    Mr. Banks. Mr. West, would you agree with that?
    Secretary West. I think that is a question for intelligence 
community as well, sir. And I am not as well informed on the 
issues or implications, and I think that requires some 
speculation to answer that well.
    Mr. Banks. I understand you haven't received orders to 
withdraw from Afghanistan or to substantially draw down, but 
there has been a lot--you would agree that that appears to be 
the way forward that this administration is forecasting.
    Could you not agree, though, that that would be a dangerous 
path forward if ISIS-K is growing, with the nature of the 
threat that they pose, to not just the stability of Afghanistan 
but as a threat to the homeland?
    Secretary West. The way I would articulate it is, is that a 
significant or sudden drawdown of our counterterror ability or 
footprint would be a risk.
    Mr. Banks. Thank you.
    I yield back.
    The Chairman. Thank you.
    Mr. Cisneros.
    Mr. Cisneros. Thank you, gentlemen, for being here this 
morning.
    I just want to follow up on our earlier question about the 
radicalization. We know these terrorist groups have done very 
well at using technology, basically the internet, to push forth 
their propaganda and to recruit. Can you give me some 
information on what we are doing to prevent the recruitment of 
new members and the radicalization of individuals online?
    General Hecker. Congressman, I would be happy to give you 
that information in a closed session. I think there have been a 
couple other questions along that line, and I can give you some 
specifics.
    Mr. Cisneros. Thank you.
    I yield back my time.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you very much.
    Thank you, gentlemen. I appreciate your work. We know that 
we have had the degradation of ISIS in Syria and Iraq, and that 
is very encouraging, but as we have heard, those ISIS fighters 
are going across the world. And I was in the Philippines last 
year and very concerned with the growth of the foreign fighters 
there and ISIS growing. We know, in 2017, an ISIS-affiliated 
group took over the city of Marawi for 5 months. And just last 
month, we had a suicide bombing that killed 20 people, wounding 
100 more in the Philippines.
    So can you speak to the Department's assessment of ISIS's 
current operational capacity in the Indo-Pacific region and 
then address what the DOD partnership building efforts are in 
that state?
    Secretary West. Yes, Congresswoman. From a DOD perspective, 
this is a very big problem, because this franchise, for lack of 
a better term, that has grown up, some of it formed from the 
former Abu Sayyaf but now affiliating themselves with ISIS, has 
taken the tactic of suicide bombing and employed it. This is a 
very difficult tactic to combat, and it does require the same 
basic template that we have begun to use the world over, which 
is a local partnership, some fiscal authorities, but then some 
presence of U.S. forces to help them target and track, because 
this is now happening at both a group level but also an 
individual level, in terms of what we might call here lone-wolf 
attacks.
    Mrs. Hartzler. Would you say that the ISIS involvement 
there and presence is increasing or decreasing? Do you think we 
are getting a handle on this, or is this just burgeoning out of 
control?
    Secretary West. Congresswoman, my intelligence counterparts 
are better informed. I would say we don't know whether we are 
at the outset of what will be a long-term trend in terms of the 
migration of this ideology and an end-state where you have 
folks committing attacks on a regular basis.
    Mrs. Hartzler. Okay, great. Just switching gears, ISIS grew 
due to the very active recruitment efforts, which I am looking 
forward to hearing what we are doing to counter some of the 
social media recruitment, but also there was a real problem in 
the beginning with financing. I believe the report that we were 
given, $30 million a month in revenue ISIS was bringing in 
there initially, and now it is down to $1.2 million a month in 
2018, if I read that right.
    But what is the status of the financing? Because that was 
certainly a concern that helped fuel their rapid expansion 
there initially. So how successful are we on cutting off their 
financing, where is it coming from, and what are we doing to 
target that?
    General Hecker. Congresswoman, are you particularly talking 
about the financing in the Philippines?
    Mrs. Hartzler. No, just ISIS in general.
    General Hecker. Just ISIS in general?
    Mrs. Hartzler. Yes.
    General Hecker. I have some numbers that I pulled from a 
classified source that I can tell you about in the next 
meeting, but I can say I think at this level, very broadly, 
that ISIS's core has a relatively significant amount in their 
coffers, if you will. Very little, though, in the Philippine 
area there.
    Mrs. Hartzler. Well, initially they got a lot of that 
through taking over the oil rigs and shipping the oil over 
through Turkey and then the kidnapping and asking for ransom 
and things. So what methodologies are we seeing maybe still 
financing? Or maybe that should be in our next setting. How are 
they being financed?
    General Hecker. I think we can broadly talk about it. The 
oil is not there pretty much anymore, but now it is more of the 
robberies, it is more of the kidnapping for ransoms, and those 
kind of activities.
    Mrs. Hartzler. Okay. Thank you very much.
    I yield back.
    The Chairman. Thank you. Ms. Houlahan.
    Ms. Houlahan. Thank you, gentlemen. I am sorry. I was just 
in a meeting on Yemen, and I understand that a bit of my 
question was asked already, but I will ask it more broadly.
    What is your assessment of our competitors' support for 
proxy groups that counter our national security objectives, and 
do you see more Russian weapon sales or Iranian support for 
proxy groups and militias on the rise, and if so, where other 
than Yemen?
    Secretary West. Thank you, Congresswoman. Broadly, yes, 
proxy warfare is on the rise. Indeed, while warfare's nature 
doesn't change, its face has changed in the last decade. And 
specifically, as you pointed out, great powers are now 
competing and in an irregular space, and we must quickly 
adjust.
    Ms. Houlahan. And my second question has to do with whether 
or not you see either a rise in competition or an increasing 
competition between al-Qaida and ISIS, and is that contributing 
in Africa to any sort of anxiety that you have that there will 
be an increased influence of terrorist groups like ISIS and al-
Qaida?
    Secretary West. Congresswoman, I do know that, you know, 
following the split in February of 2014, I believe, from ISIS 
and al-Qaida in West Africa, as you point out, these groups' 
affiliations, we have had mergers and then splits.
    Stepping back, I am not sure it matters much to us except 
for the fact that we have got to carefully prioritize these 
threats and allocate the appropriate resources to them. What I 
mean by that is terrorists with local ambition or little 
capability do not deserve the same footprint or resources as 
those who have demonstrated the capability and will to strike 
the homeland.
    Ms. Houlahan. And do you think if we pull out in any sort 
of meaningful way from participating in Yemen that there will 
be sort of a vacuum created between any of those groups that 
will increase the competition and will allow for an increased 
threat in the terms of sort of terrorism from al-Qaida or ISIS?
    Secretary West. In Yemen, in terms of our counterterror 
strategy, we are ruthlessly focused on al-Qaida and ISIS, and 
we should continue to have a presence because these groups have 
not only threatened us but demonstrated the capability to do so 
against the homeland.
    Ms. Houlahan. Thank you, gentlemen.
    The Chairman. Okay. We are going to wrap up and go upstairs 
for the classified briefing, but, Mr. Thornberry has a 
followup. We will wrap up with that, and then we are going to 
go upstairs to 2212.
    Mr. Thornberry. Mr. West, I want to follow up on an answer 
you gave to Mr. Gallagher a while ago about Iran's intention or 
efforts to conduct terrorist attacks inside the United States. 
I noticed that last week, in his World Threat Assessment, the 
Director of National Intelligence listed at least two incidents 
in his chart where Lebanese Hezbollah had attack planning 
disrupted, including operatives detained, arrested, discovery 
of weapons, explosive caches, detection of surveillance inside 
the United States.
    Now, I presume that you would not disagree that at least 
their proxies have made efforts to conduct terrorist attacks 
inside the United States?
    Secretary West. That author is far more informed than I am, 
Congressman.
    Mr. Thornberry. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    All right. We are adjourned. And we will reconvene probably 
like 5 minutes, maybe 10 if the gentlemen need a brief break, 
upstairs in 2212. Thank you.
    [Whereupon, at 11:48 a.m., the committee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                            February 6, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 6, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 6, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. GALLEGO

    Mr. Gallego. I understand that there have been efforts to implement 
changes and recommendations of AFRICOM's investigation into the ambush 
in October 2017 that resulted in the deaths of four U.S. soldiers and a 
number of Nigerien soldiers accompanying the unit in question. What 
changes to policy have been made?
    Mr. West. As a result of the Niger investigation report, then-
Secretary Mattis directed U.S. Africa Command, U.S. Special Operations 
Command, the Department of the Army, and the Under Secretary of Defense 
for Personnel and Readiness to conduct a comprehensive review of 
procedures, policies, and training programs and report back to him with 
a plan of action and corrective measures. The Acting Secretary of 
Defense is currently reviewing these reports and all commendatory and 
disciplinary actions related to the attack. After the Acting 
Secretary's review, we will provide an update on the measures taken 
consistent with the Niger investigation report to mitigate risk to and 
increase the preparedness of members of the U.S. Armed Forces 
conducting missions, operations, or activities in Niger and throughout 
Africa. U.S. Africa Command has already begun implementing significant 
changes and improvements at all levels, including with U.S. Special 
Operations Command Africa and U.S. Air Forces Africa. Updates include 
improvements to Personal Protective Equipment (PPE) standards and 
requirements; increased synchronization and coordination between ground 
forces, partner forces, and intelligence, surveillance, and 
reconnaissance (ISR). There have also been changes to guidance and 
directives to improve pre-deployment training and pre-mission battle 
drill rehearsals with partner forces; sustainment of medical field care 
training programs; as well as recommendations and support for awards 
for valor by U.S. service members and foreign military personnel.
    Mr. Gallego. What is AFRICOM and the wider DOD doing to ensure that 
we are coordinating better with allies such as France and Niger in 
austere and dangerous environments like North and West Africa?
    Mr. West. Over the last year, USAFRICOM has improved integration 
with partner countries in the region and our European allies. With 
regard to our French allies, USAFRICOM has renewed agreements for 
mutual support, formalized memorandums of agreement for medical 
evacuation, and improved coordination on intelligence and logistics 
support. DOD also provides other support to French CT operations, 
including intelligence, surveillance, and reconnaissance. U.S. forces 
continue to work alongside our partners in Niger at the request of its 
government. For instance, we are continuing the construction of a 
Nigerien air base in Agadez. Once complete, this location will enable 
partner operations against violent extremist organizations. More 
detailed information can be provided in a classified setting.
    Mr. Gallego. I am concerned that reprimands and blame for the 
series of errors that led to the Niger operation in 2017 will fall 
disproportionately on junior officers and enlisteds rather than on Army 
and Pentagon brass that either knew or should have known of internal 
U.S. problems that led to this incident. How is the Army and Department 
proceeding with the review of this incident and policy concerning 
reprimands and discipline?
    Mr. West. In the wake of the Niger investigation report, then-
Secretary Mattis directed Commander, U.S. Special Operations Command 
(USSOCOM), to provide the plan for individual accountability. The 
Acting Secretary of Defense is reviewing the actions taken and planned 
regarding individual accountability, and the Department will provide an 
update once his review is complete.
    Mr. Gallego. Your response to Mr. Moulton's question of whether you 
disagree with former Secretary Mattis' opposition to a withdrawal of 
U.S. troops from Syria was ``No, sir.'' Why?
    Mr. West. As the principal assistant to the President in all 
matters relating to the Department of Defense, Secretary Mattis 
provided his best advice to the President. Sometimes there is 
disagreement. Once given the order, however, the Department executed 
those orders.
    Mr. Gallego. I understand that there have been efforts to implement 
changes and recommendations of AFRICOM's investigation into the ambush 
in October 2017 that resulted in the deaths of four U.S. soldiers and a 
number of Nigerien soldiers accompanying the unit in question. What 
changes to policy have been made?
    General Hecker. At this time, we are still waiting for Department 
of the Army, Office of the Secretary of Defense (OSD), and U.S. Special 
Operations Command (SOOCOM) to announce any changes that were 
recommended.
    Mr. Gallego. What is AFRICOM and the wider DOD doing to ensure that 
we are coordinating better with allies such as France and Niger in 
austere and dangerous environments like North and West Africa?
    General Hecker. U.S. Africa Command (USAFRICOM) maintains a 
partner-centric strategic approach across the entire area of 
operations. This partner-centric approach comprises the following three 
cross-cutting themes: First, the challenges throughout Africa cannot be 
resolved by using the military element of national power alone. Second, 
USAFRICOM aims to work by, with, and through partners and allies to 
strengthen enduring relationships and ensure partner ownership of 
solutions to various problems. Finally, in the most austere and 
dangerous environments, USAFRICOM works with partners and allies to 
continue to put pressure on the networks that resource and enable 
Violent Extremist Organizations (VEO) in order to provide increased 
security, and time and space for good governance. Over time, this 
partner-centric approach aims to effectively facilitate coordination 
with allies and strengthen partners and decrease U.S. security 
assistance requirements.
    In West Africa, specifically the Sahel region, the Department of 
Defense (DOD) provides support to French counter-terrorism (CT) 
efforts. Since 2013, the French Armed Forces (FAF) has conducted CT 
operations against VEOs in northern and western Africa. USAFRICOM 
provides logistic support, supplies, and services (LSSS) consisting of 
air refueling services, fixed-wing and rotary-wing airlift, including 
intra-theater and inter-theater, on a non-reimbursable basis. USAFRICOM 
ensures coordination with the French Armed Forces through the 
deployment of liaison and planning teams that co-locate at the 
strategic, operational, and tactical headquarters.
    Additionally in the Sahel, the U.S. supports the Group of Five (G5) 
Sahel Joint Force (FC-G5S) as an African led, European-assisted and 
U.S. supported regional approach. DOD aims to enable Sahel state 
defense institutional development while supporting partner-led counter-
VEO operations. The FC-G5S presents an opportunity to coordinate and 
integrate Security Force Assistance efforts with international partners 
and facilitates sustainable burden-sharing. DOD supports an engagement 
strategy that is partner-led and requirement driven to identify and 
verify priority support requirements for the FC-G5S. DOD will continue 
a bilateral security cooperation approach in accordance with U.S. law 
and authorities but will maintain the flexibility to shift support 
requirements based on partner decisions and operational capabilities of 
the force. Through existing security cooperation efforts and planned 
embedded planner support, DOD is well positioned to provide future 
support and coordination within this austere environment.
    In Niger, DOD partners with military forces and trains with them 
during multiple exercises. In 2018 Niger hosted FLINTLOCK18, an annual 
training exercise focusing on operational tasks, tactical events, and 
command and control functions for U.S. forces to counter-VEOs. This 
exercise is just one of many examples that enables and trains U.S. 
forces within the region, but also allows for increased coordination 
with multiple allies and partners.
    In the Lake Chad Basin (LCB) region, the U.S. strategy to counter 
VEOs includes strengthening the capacity of the security sector of the 
LCB countries. The Multi-National Joint Task Force (MNJTF) is an 
African-led organization consisting of military and civilian elements 
and include all of the LCB countries and Benin. The goal of the MNJTF 
is to assist the LCB governments to develop rule of law frameworks, to 
provide long-term security for the population, to build resilience of 
the affected communities, and address the underlying socio-economic 
political drivers that lead to violent extremism. The P3 countries 
(U.S., France, and United Kingdom) supporting the MNJTF provide a 
Coordination Cell, Liaison (CCL) to facilitate tactical and operational 
planning and execution across the four operational sectors within the 
MNJTF area of responsibility. The CCL is comprised of 15 personnel--of 
which three are U.S. service members.
    In conclusion, USAFRICOM's partner-centric approach aims to 
effectively facilitate coordination with allies and strengthen partners 
and decrease U.S. security assistance requirements--enabling better 
coordination with allies such as France and Niger, among others, in 
austere and dangerous environment within North and West Africa.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. Mr. West, last September, then-Assistant Secretary Karem 
testified before members of this committee that ``ISIS remains stronger 
now than its predecessor was when the United States withdrew from Iraq 
in 2011.'' The National Strategy for Counterterrorism released in 
October of last year declared ``ISIS remains the foremost radical 
Islamist terrorist group and the primary transnational terrorist threat 
to the United States''. Yet, just three months later, the President 
declared via twitter that ``We have defeated ISIS in Syria'' and he 
ordered the U.S. military's complete withdrawal from Syria. Between 
September and December, what changed?
    Mr. West. The statements are not mutually exclusive. Our counter-
ISIS campaign has effectively destroyed the ``physical'' caliphate in 
Syria, eliminating a safe have that served as the crowning achievement 
of ISIS. ISIS no longer governs a pseudo-state in Syria that, at its 
height, attracted tens of thousands of recruits from around the world. 
At the same time, the ideology of ISIS remains unchanged and the group 
continues to seek ungoverned or weakly governed areas from which they 
can launch attacks against U.S. interests. DOD remains committed to 
working by, with, and through partners and allies, such as the 79-
member Global Coalition to Defeat ISIS, to secure the enduring defeat 
of ISIS.
    Mr. Brown. Mr. West, by open sources we currently have 2,000 troops 
in Syria; 5,200 in Iraq; 14,000 in Afghanistan. In addition, General 
Thomas, SOCOM Commander, stated in his testimony to HASC last year that 
we currently have deployed approximately 8,300 special forces personnel 
across 90 countries. Can you tell me how many roughly how many special 
forces personnel are deployed to Central America and Mexico?
    Mr. West. The total number of USSOF (including enablers) deployed 
to South America and Mexico fluctuates. However, there are typically 
approximately 100 USSOF personnel deployed throughout Central America 
(not including the Caribbean) and approximately 30-40 USSOF personnel 
deployed to Mexico.
    Mr. Brown. Mr. West, beginning with the Bush administration, the 
United States made a concerted effort to use foreign aid as an 
instrument in countering terrorism. During the Obama Presidency--and 
under Republican majority Congresses--foreign aid was funded at a 
fairly constant level of approximately $50B annually. The National 
Strategy for Counterterrorism released in October declares that we will 
``use all available instruments of United States power to counter 
terrorism.'' Yet, the President's Budget in each of the last two years 
has reduced foreign aid by 25% each year, only to have it restored by 
Congress. Do you believe that reducing foreign aid by this amount 
supports our strategy of using all instruments available to the U.S.?
    Mr. West. Administration is seeking the resources we need to 
support targeted efforts to advance our counter terrorism goals and 
objectives, while pressing our allies and partners to contribute their 
fair share to these joint efforts. I defer to the Department of State, 
however, to further elaborate on U.S. foreign assistance and burden 
sharing.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. Secretary West, as you and I have discussed before, 
we must not forget the long-term objectives when it comes to 
counterterrorism, and by that I mean ensure that our successes are not 
only of a kinetic nature. Throughout my time in Congress and as the 
ranking member of IETC Subcommittee, I am very much aware of the 
continuous work between the Department and Congress to achieve rigorous 
oversight of dynamic counterterrorism operations through the Oversight 
of Sensitive Military Operations Act (OSMOA). But as we approach year 
18 of near-constant combat, it is critical that we understand our long-
term, sustainable objectives. While we have indeed made progress--and 
in doing so have developed a surgical strike and direct action 
capability second to none--we have yet to sustain many of our hard 
fought gains. How do we ensure and measure regional and strategic 
effects on the battlefield that contribute to national security and 
protect our homeland?
    General Hecker. Our principal measure of success is the number of 
attacks against the homeland and U.S. interests abroad. DOD works 
closely with other departments and agencies of the U.S. Government and 
allies and coalition partners to continuously assess the effectiveness 
of our approach as well as the progress of our partners towards 
development of effective CT capabilities. Key conditions for success in 
our approach will be the reduction of terrorist safe-havens and 
terrorist attacks in a region, an increase in local and regional 
security that facilitates good governance, and a sufficient number of 
capable and competent security forces that adhere to the rule of law 
and respect human rights, to address threats independently.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. GAETZ
    Mr. Gaetz. Counterinsurgency and drug interdiction is the primary 
mission of 7th SFG based out of my district. Recently it has come to 
light that a potential new area of influence for terrorists is 
Venezuela. Hezbollah and Iran have interests in seeing a 
destabilization of Venezuela.
    Do you believe that Iran will use the instability in South America 
to maneuver more of its irregular forces and terrorist partners into 
the AO?
    Do you believe that we are prepared to fight a COIN mission in 
South America? What are the key differences between COIN in the Middle 
East and COIN in South America?
    General Hecker. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALTZ
    Mr. Waltz. In January, ELN, a U.S.- and EU-designated terrorist 
organization, detonated a car bomb in Colombia, killing 21 people and 
injuring 68 more.
    Juan Guaido, President of Venezuela's National Assembly, said the 
bomber spent years living in Venezuela. ELN terrorists are operating in 
Venezuela, engaged in smuggling, drug trafficking, and illegal mining. 
There are reports that ELN is actively recruiting hungry Venezuelans, 
some as young as 15, taking advantage of the country's economic and 
political crisis to reinforce their criminal enterprise. Furthermore, 
ELN commander Pablo Beltran has pledged his support for the Maduro 
regime.
    How would you rate the threat ELN poses as a destabilizing force in 
our hemisphere? Are there state-actors that are aiding or harboring ELN 
terrorists?
    Mr. West. I would defer to the intelligence community to provide an 
assessment of the capabilities and threat posed by ELN. With that said, 
we would welcome the opportunity to go more in depth on the issue 
within a classified setting.
    Mr. Waltz. Can you provide a status update of any Americans, 
including dual-citizens and legal permanent residents, being held 
hostage in Syria?
    Mr. West. U.S. and partner forces are tracking U.S. citizens being 
held hostage in Syria and continue to collect information that may 
assist in their recovery, as well as the recovery of remains of U.S. 
citizens murdered by ISIS. The interagency Hostage Recovery Fusion Cell 
(HRFC) tracks hostage-related information from across the U.S. 
Government, coordinates department and agency actions, and recommends 
recovery options. Additional information can be provided in a 
classified setting.
    Mr. Waltz. The Idlib pocket where al-Qaida still has a presence. 
What is our counterterrorism strategy for effecting al-Qaida, and 
degrading, and continue the destruction of al-Qaida in that pocket?
    Mr. West. The Coalition primarily operates in northeastern Syria 
and in a 55-kilometer area surrounding the At Tanf Garrison in 
southeastern Syria. To complement Coalition counterterrorism operations 
in these areas, DOD seeks a political solution to the Syrian Civil War 
under United Nations Security Council Resolution 2254. Such a political 
solution is critical to addressing the terrorist threat across all of 
Syria--including in Idlib.
    Mr. Waltz. The Idlib pocket where al-Qaida still has a presence. 
What is our counterterrorism strategy for effecting al-Qaida, and 
degrading, and continue the destruction of al-Qaida in that pocket?
    General Hecker. A Deputies Committee meeting was convened in late 
November, 2018 to conduct an in-depth study, assessment and 
recommendation concerning the current, and future DIME options for the 
Idlib pocket. While it is recognized across the Department of Defense 
(DOD), Intelligence Community, and Interagency what threat potentials 
can emanate out of Idlib, it was agreed to provide time and space for 
the Russia/Turkey tactical engagement for addressing Idlib to take its 
due course. As a collective DOD/Intelligence Community approach, we 
will continuously look at options that range across both military and 
State capabilities for engagement if we feel the threat warrants taking 
our eye off the current Defeat ISIS (D-ISIS) fight.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. ESCOBAR
    Ms. Escobar. Secretary West, recently the President said in an 
interview that ``we'll come back if we have to'' in reference to the 
troop withdrawal in Syria. Is this cost effective? What impact will 
this back and forth have on readiness? Is this a sustainable solution?
    Mr. West. The Department of Defense is drawing down forces in Syria 
and leaving behind a residual force that will work by, with, and 
through our partners to ensure the lasting defeat of ISIS. This is 
expected to be a more sustainable approach compared to sustaining a 
larger force in Syria. The Department will continue to prevent 
terrorists from directing or supporting external operations against the 
U.S. homeland and our citizens, allies, and partners overseas. Our 
force posture and employment seek to be adaptable in the global 
strategic environment while balancing the impacts of operations with 
force readiness.
    Ms. Escobar. Secretary West, has the Department conducted a cost-
benefit analysis of withdrawing and then going back to Syria if needed? 
How would this cycle impact military readiness?
    Mr. West. The Department of Defense has not done a formal cost 
benefit analysis, USCENTCOM continues its force planning in Syria. We 
are drawing down our forces in Syria, and leaving behind a residual 
force that will work by, with, and through our partners to ensure the 
lasting defeat of ISIS. This approach utilizes an adaptable force 
posture in the global strategic environment and balances the impacts of 
operations with force readiness.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. HORN
    Ms. Horn. Central Command-Afghanistan. In seeking to enable 
stability in the region U.S. forces are focusing on two lines of 
effort: 1) counter terrorist operations to disrupt and disable 
terrorist networks, and 2) training and equipping the Afghan security 
forces to maintain internal security. Much of this mission is carried 
out through the deployment of the Security Force Assistant Brigade 
(SFAB) in the train, advise, and assist model. It is no secret that 
there have been challenges both expected and unexpected with the 
training and engagement of Afghan forces.
    Can you briefly review our overall strategy? What unexpected issues 
are you encountering with the training of the Afghan forces, and what 
solutions are you implementing?
    How are the Afghan forces handling different emerging threats?
    Can you discuss the risk of pulling back U.S. training and 
financial support to the Afghan forces? What immediate and long-term 
impacts would that have on sustainability in the region?
    Mr. West. The ultimate goal of the 2017 South Asia Strategy is a 
durable and inclusive political settlement. The overall strategy in 
Afghanistan is focused on efforts to Reinforce, Realign, Regionalize, 
Reconcile, and Sustain. There have been more promising indicators on 
reconciliation over the last several months than at any time since 
2002. We are also focused on applying maximum pressure on the Taliban, 
and these efforts are designed to support Department of State efforts 
towards reconciliation and a political settlement. Consistent with 
this, we continue to support our Afghan partners with training, advice, 
and assistance to increase their capabilities and effectiveness in 
providing security and combatting terrorism. The addition of the SFABs 
in 2018 extended the reach of U.S. advisors to 8 different Afghan 
National Army (ANA) Brigades and 34 ANA kandaks. There is still 
progress to be made, but the Afghan forces are pushing the fight 
against the Taliban and against ISIS Khorasan. We are continuing to 
advise at critical points to ensure the tactical and operational 
success of the Afghan National Defense and Security Forces. Right now, 
there are no plans to withdraw U.S. forces from Afghanistan, and we are 
committed to achieving a political settlement. Any changes to U.S. 
force presence will be driven by conditions on the ground and informed 
by ongoing assessments of current efforts.
    Ms. Horn. Now a couple of questions on AFRICOM. There seems to be 
an increased terrorist activity in the Central and East Africa region. 
There was an alert published just two days ago by the U.S. Embassy in 
Nairobi that read ``Credible information indicates Westerners may be 
targeted by extremists in Nairobi and coastal areas of Kenya. This 
message comes weeks after the al-Qaida-linked terrorist group al-
Shabaab took credit for the killing of 21 people in a hotel.
    What specificity is being done to suppress the growing emerging 
threats, specifically ones that seem to originate in Somalia?
    What is AFRICOM's overall strategy for eradicating threats in the 
area?
    Mr. West. DOD efforts have focused on applying pressure 
persistently to al-Shabaab, building relationships with key regional 
and international partners, and building the capacity of Somali 
security forces to address the threats in their own country. USAFRICOM 
has the authority to conduct military direct action against al-Shabaab 
and the Islamic State of Iraq and Syria (ISIS) in Somalia. These 
strikes provide opportunity for the Federal Government of Somalia to 
expand its influence and control in the country and allow time for the 
Somali National Army to increase its capability to provide security in 
Somalia. USAFRICOM's strategy entails a sustainable approach, building 
strong, enduring partnerships with African and international partners 
and organizations that are committed to improving security in Somalia, 
and assisting in the development of elements of the Somali National 
Army that respect human rights, adhere to the rule of law, and 
contribute to stability in Somalia.

                                  <all>
</pre></body></html>
